APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order Denying Petition for Review in
the Supreme Court of California
(September 25, 2019) . . . . . . . . . . App. 1
Appendix B Opinion in the Court of Appeal of the
State of California, Third Appellate
District
(July 2, 2019) . . . . . . . . . . . . . . . . App. 2
Appendix C Opinion in the Court of Appeal of the
State of California, Third Appellate
District
(June 8, 2011) . . . . . . . . . . . . . . . App. 48
Appendix D Minute Order in the Superior Court of
the State of California, County of
Sacramento
(September 25, 2009) . . . . . . . . . App. 62
Appendix E Order Granting People’s Motion for
Summary Judgment or, Alternatively,
for Summary Adjudication and
Request for Civil Penalties and
Injunction in the Superior Court of the
State of California, County of
Sacramento
(December 28, 2016) . . . . . . . . . . App. 79

ii
Appendix F Order Denying Native Wholesale
Supply Company’s Motion for
Summary Judgment, or Alternatively,
Motion for Summary Adjudication in
the Superior Court of the State of
California, County of Sacramento
(December 28, 2016) . . . . . . . . . . App. 98
Appendix G Amended Notice of Entry of Judgment
in the Superior Court of the State of
California, County of Sacramento
(January 24, 2017) . . . . . . . . . . App. 111
Appendix H Letter Granting Motion for Extension
of Time in the United States Supreme
Court
(December 5, 2019) . . . . . . . . . . App. 117
Appendix I Declaration of Erlind Hill in Support
of Native Wholesale Supply
Company’s Opposition to the People’s
Motion for Summary Judgment, or
Alternatively, Motion for Summary
Adjudication in the Superior Court of
the State of California, County of
Sacramento
(November 17, 2016) . . . . . . . . . App. 119
Appendix J Complaint for Injunction, Civil
Penalties, Contempt and Other Relief
in the Superior Court of the State of
California, County of Sacramento
(June 30, 2008) . . . . . . . . . . . . . App. 123

App. 1

APPENDIX A
IN THE SUPREME COURT OF CALIFORNIA
En Banc
S257409
[Filed September 25, 2019]
_____________________________________________
THE PEOPLE ex rel. XAVIER BECERRA,
)
as Attorney General, etc.,
)
Plaintiff and Respondent,
)
)
v.
)
)
NATIVE WHOLESALE SUPPLY COMPANY, )
Defendant and Appellant.
)
____________________________________________ )
Court of Appeal, Third Appellate District No. C084031, C084961
The petition for review is denied.
CANTIL-SAKAUYE
Chief Justice

App. 2

APPENDIX B
CERTIFIED FOR PARTIAL PUBLICATION*
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)
C084031, C084961
(Super. Ct. No. 34200800014593CUCLGDS)
[Filed July 2, 2019]
_____________________________________________
THE PEOPLE ex rel. XAVIER BECERRA,
)
as Attorney General, etc.,
)
Plaintiff and Respondent,
)
)
v.
)
)
NATIVE WHOLESALE SUPPLY COMPANY, )
Defendant and Appellant.
)
____________________________________________ )
APPEAL from a judgment of the Superior Court of
Sacramento County, David I. Brown, Judge. Affirmed.
Lipsitz Green Scime Cambria and Paul J. Cambria,
Jr. , Erin E. McCampbell and Patrick J. Mackey for
Defendant and Appellant.
*

Pursuant to California Rules of Court, rules 8.1105 and 8.1110,
this opinion is certified for publication with the exception of parts
II and III of the Discussion.

App. 3
Xavier Becerra, Attorney General, Karen Leaf,
Senior Assistant Attorney General; Nicholas M.
Wellington, Michael M. Edson, and Nora Flum Deputy
Attorneys General for Plaintiff and Respondent.
Defendant Native Wholesale Supply Company
(NWS), an Indian-chartered corporation headquartered
on a reservation in New York, sold over a billion
contraband cigarettes to an Indian tribe in California,
which then sold the cigarettes to the general public in
California. (People ex rel. Harris v. Native Wholesale
Supply Co. (2011) 196 Cal.App.4th 357, 362-364
(Harris).) The cigarettes were imported from Canada,
stored at various places in the United States (not
including California), and then shipped to California
after they were ordered from the reservation in New
York. The Attorney General succeeded on his motion
for summary judgment holding NWS liable for civil
penalties in violation of two California cigarette
distribution and sale laws and Business and
Professions Code section 17200 (the unfair competition
law), and obtained a permanent injunction precluding
NWS from making future sales. The Attorney General
further obtained an award of attorney fees and expert
expenses.
NWS appeals from the judgment and the attorney
fee order. We affirm.

App. 4
BACKGROUND
I
Factual Background -- The Cigarette Sales
Transactions
The material facts are undisputed.1 NWS is a
corporation chartered under the laws of the Sac and
Fox Nation of Oklahoma (Sac and Fox), a federallyrecognized Indian tribe, headquartered on the Seneca
Nation of Indians’ (Seneca) reservation in New York.2
Arthur Montour, an enrolled Seneca member, is NWS’s
sole owner. NWS’s principal business is the sale of
tobacco products produced and packaged by Grand
River Enterprises Six Nations Ltd. (Grand River), a
Canadian corporation located in Ontario, Canada.
Grand River has never been listed on the California
Attorney General’s Tobacco Directory as specified in
Revenue and Taxation Code section 30165.1.

1

The trial court sustained the Attorney General’s objections to the
separate statement of undisputed facts, noting: “while NWS
purports to dispute a number of the facts set forth in the [Attorney
General’s] separate statement, none of the facts are truly disputed
and/or to the extent there is any dispute, it is not material.” NWS
does not challenge the trial court’s finding in that regard.
2

Although immaterial to this appeal, we note NWS filed for
bankruptcy in 2011; the bankruptcy court issued an order
confirming NWS’s bankruptcy plan in 2014. NWS’s disclosure
statement supporting confirmation of its bankruptcy plan reveals
the bankruptcy had virtually no effect on its business: “ ‘The year
prior to the Petition, the annual sales were at a level of
approximately $200,000,000 and it has continued at that level for
the majority of the Chapter 11 administration period.’ ”

App. 5
NWS imported Grand River’s cigarettes and stored
them in rented space at one of the following three
federally regulated facilities before shipping them to
customers: (a) the Western New York Foreign Trade
Zone in Lackawana, New York; (b) the Southern
Nevada Foreign Trade Zone in Las Vegas, Nevada; or
(c) a bonded warehouse located on the Seneca
reservation in New York.
Between 2004 and 2012, NWS sold and shipped
98,540 cases of Grand River cigarettes (equaling more
than 54.5 million cigarette packs or over a billion
cigarettes) to the Big Sandy Rancheria Band of Mono
Indians (Big Sandy), a small Indian tribe residing in
California.3 The sales occurred in 476 invoiced
transactions, with a total value of almost $67.5 million.
NWS used a customs broker located in Woodland Hills,
California, to assist with some of the transactions, and
paid shipping carriers headquartered in Texas,
Nebraska, and New York to deliver the cigarettes.
II
Legal Background -- The Cigarette Distribution
And Sale Statutes
To provide context for the trial court’s rulings and
the discussion that follows, we briefly summarize the
two pertinent sets of statutes governing different
aspects of the sale and distribution of cigarettes in
California -- the Directory Statute (Rev. & Tax. Code,
§ 30165.1) and the California Cigarette Fire Safety and

3

As of 2005, Big Sandy had approximately 434 members.

App. 6
Firefighter Protection Act (Fire Safety Act) (Health &
Saf. Code, § 14950 et seq.).
A
The Directory Statute
In 1998, California and 45 other states entered into
a master settlement agreement (the MSA) with the
four largest American tobacco product manufacturers.
(State ex rel. Edmondson v. Native Wholesale Supply
(2010) 2010 OK 58 [237 P.3d 199, 203] (Edmondson);
Harris, supra, 196 Cal.App.4th at p. 363; see Health &
Saf. Code, § 104555, subd. (e).) The states had sued the
manufacturers to recoup health care expenses incurred
by the states because of cigarette smoking.
(Edmondson, at p. 203.) “In exchange for a liability
release from the states for smoking-related public
healthcare costs, the settling manufacturers agreed to
limit their marketing and to pay the settling states
billions of dollars in perpetuity” (Harris, at p. 363) by
making “an annual payment to each settling state
computed in relation to that manufacturer’s volume of
cigarette sales in the state” (Edmondson, at p. 203).
“In order to prevent tobacco manufacturers not
participating in the MSA from gaining a cost advantage
over the settling manufacturers and to provide the
states with a source of money from which to recover
tobacco-related health care costs attributable to the
sales of cigarettes by non-participating manufacturers,
the MSA calls for each settling state to enact and
enforce a statute (a ‘qualifying statute’) requiring all
tobacco manufacturers not participating in the MSA
who sell cigarettes in a state to make annual payments
into an escrow account based on the manufacturer’s

App. 7
relative market share in such state.” (Edmondson,
supra, 237 P.3d at p. 203.)
California’s “qualifying statute” is commonly
referred to as the Escrow Statute. It provides that
cigarettes sold in this state must be produced by
manufacturers who either (a) have signed the MSA, or
“(b) in lieu of signing the MSA, have agreed to pay
sufficient funds into a reserve fund in escrow to
guarantee a source of compensation should liability
arise.” (People ex rel. Becerra v. Huber (2019) 32
Cal.App.5th 524, 530.)
The Directory Statute serves as a complement to
the Escrow Statute, to ensure compliance with its
provisions. “Under the Directory [Statute], the
Attorney General maintains a published list of all
cigarette manufacturers who have annually certified
their compliance with the requirements of the MSA or
the alternative escrow funding requirements.” (People
ex rel. Becerra v. Huber, supra, 32 Cal.App.5th at
p. 530; Rev. & Tax. Code, § 30165.1, subds. (b)-(c).) The
Directory Statute prohibits any person from selling,
offering, or possessing for sale in California, or
shipping or otherwise distributing into or within
California any cigarettes not listed as legal for sale on
the Attorney General’s directory. (Rev. & Tax. Code,
§ 30165.1, subd. (e)(2).) Revenue and Taxation Code
section 30165.1, subdivision (e)(3) prohibits persons
from selling, distributing, acquiring, holding, owning,
possessing, importing, transporting, or causing to be
imported, cigarettes that the person knows or should
know are intended to be distributed in violation of
subdivision (e)(2).

App. 8
B
The Fire Safety Act
“[U]nder the Fire Safety Act, any manufacturer of
cigarettes sold in California must meet specified
testing, performance, and packaging standards
established for the purpose of minimizing the fire
hazards caused by cigarettes. [Citations.] This statute
provides that all cigarettes sold in this state must,
among other things, be packaged in a specified manner
and certified with the State Fire Marshal as compliant
with these safety standards. [Citation.] It is
categorically illegal for any ‘person’ to ‘sell, offer, or
possess for sale in this state cigarettes’ that do not
comply with the Fire Safety Act.” (People ex rel. Becerra
v. Huber, supra, 32 Cal.App.5th at pp. 530-531.)
III
Procedural Background
The Attorney General filed a civil enforcement
action against NWS in 2008, seeking an injunction,
civil penalties, contempt and other relief for violations
of the Directory Statute and Fire Safety Act, violation
of Business and Professions Code section 17200
predicated on violations of the Directory Statute, Fire
Safety Act, and a federal statute, and violation of an
injunction. NWS filed a motion to remove the case to
federal court, but the case was remanded back to state
court for lack of federal subject matter jurisdiction.
In state court, NWS filed a motion to quash service
for lack of personal jurisdiction, which culminated in
our 2011 opinion concluding NWS is subject to personal
jurisdiction in California for the claims asserted

App. 9
against it in this action. This court held that, among
other things, NWS purposefully availed itself of the
substantial benefits of conducting activities in
California (i.e., it had minimum contacts) because the
cigarettes it sold to Big Sandy were in turn sold to the
general public in California. (See Harris, supra, 196
Cal.App.4th at pp. 360, 362-365.) NWS then filed a
demurrer to all the causes of action. The trial court
sustained the demurrer with respect to the injunction
violation cause of action and overruled it with respect
to the remaining causes of action.
The parties subsequently engaged in discovery,
resulting in several motions and rulings, five of which
are the subject of this appeal. Those motions and
rulings are discussed in greater detail in the pertinent
Discussion section below.
In August 2016, the Attorney General and NWS
filed their respective motions for summary judgment.
The Attorney General argued NWS did not dispute the
essential facts supporting the causes of action. NWS
argued: (1) the Indian Commerce Clause preempted the
claims against NWS because the “transactions occurred
on a reservation solely among various Indian-owned
entities”; and (2) injunctive relief would be unnecessary
and ineffectual because NWS is a bankrupt entity and
voluntarily discontinued selling cigarettes within
California in 2012.
NWS raised the same preemption and injunctive
relief arguments in its opposition to the Attorney
General’s motion for summary judgment, and further
argued: (1) the trial court lacked personal jurisdiction
over NWS for the claims presented; (2) the Directory

App. 10
Statute violated NWS’s equal protection rights;
(3) NWS “was under no legal obligation to comply with
the mandates of the Directory and Escrow Statutes at
the time of the cigarettes sales at issue in this case (i.e.
2004-2012)” because the statutes did not apply to NWS
until 2013; and (4) the calculation of civil penalties was
too speculative for summary judgment because the
Attorney General submitted no proof of the quantity of
cigarettes sold to non-Indian customers and could not
seek penalties for cigarettes sold to Indian customers.
The trial court granted the Attorney General’s
motion and denied NWS’s motion, finding none of
NWS’s defenses availing and no triable issues of
material fact relating to the alleged violations.
The trial court found the Attorney General provided
sufficient evidence to establish Directory Statute
violations by “demonstrat[ing] that NWS sold in and
shipped or otherwise distributed into California
cigarettes that were not listed on the Attorney
General’s directory in violation of subdivision (e)(2)”
and “that NWS knew or should have known that Big
Sandy intended to redistribute the cigarettes in
violation of subdivision (e)(2), which constitutes a
violation of subdivision (e)(3).” The Attorney General
“met [his] burden to shift to NWS the burden on
demonstrating the existence of a triable issue of
material fact. It failed to do so.”
The trial court further found the Attorney General
provided sufficient evidence to establish Fire Safety Act
violations by “show[ing] that NWS sold cigarettes to
Big Sandy for which no certification had been filed
between July 9, 2008, when it was served with the

App. 11
complaint in this action, and May 25, 2012, when it
claimed to have stopped selling the cigarettes.
[Citations.] At no time prior to February 2014 were any
[Grand River]-Cigarettes certified as being in
compliance with Health & Safety Code section 14951,
subdivision (a)(4). [Citations.] The evidence [wa]s
sufficient to shift to NWS the burden of demonstrating
the existence of a triable issue of material fact.” NWS
again failed to carry its burden.
Finally, the trial court found the Attorney General
proved NWS’s violation of Business and Professions
Code section 17200 through the violations of the
Directory Statute and Fire Safety Act, and violation of
a federal cigarette interstate commerce statute (15
U.S.C., § 376), which required NWS to file monthly
reports with the state tax administrator, providing
specific information about each shipment. “The
evidence show[ed] that NWS, headquartered in New
York, sold and shipped cigarettes from outside
California to Big Sandy in California, which is not a
licensed distributor in California, thus engaging in
interstate commerce. [Citations.] NWS failed to file
monthly reports with the state tax administrator.
[Citation.] The evidence [wa]s sufficient to shift to
NWS the burden of demonstrating the existence of a
triable issue of material fact.” NWS failed to carry its
burden.
Given that there were no disputed factual issues
regarding remedies, the trial court granted the
Attorney General’s request for civil penalties in the
amount of $4,292,500, and his request for an
injunction.

App. 12
The Attorney General subsequently moved for
attorney fees. The court granted that motion and
awarded $3,843,981.25 in attorney fees and $9,119.25
in expert expenses, for a total of $3,853,100.50. We
discuss the specifics relating to the attorney fee order
in the pertinent Discussion section below.
NWS appeals from the trial court’s judgment in
favor of the Attorney General and the order granting
the Attorney General’s request for attorney fees.
DISCUSSION
I
Summary Judgment
Summary judgment is properly granted when no
triable issue exists as to any material fact and the
moving party is entitled to judgment as a matter of
law. (Code Civ. Proc., § 437c, subd. (c).) We review the
grant and denial of summary judgment motions de
novo. (Law Offices of Dixon R. Howell v. Valley (2005)
129 Cal.App.4th 1076, 1092.) We independently
examine the record and evaluate the correctness of the
trial court’s ruling, not its rationale, and must affirm
the order if it reaches the correct result under any legal
theory. (Moore v. William Jessup University (2015) 243
Cal.App.4th 427, 433.) Here, the material facts are
undisputed, raising only questions of law.
A
Personal Jurisdiction
NWS challenges the trial court’s refusal to relitigate
the issue of personal jurisdiction, raised as a defense to
the Attorney General’s motion for summary judgment.
The trial court declined to consider the defense because

App. 13
the issue had been extensively litigated earlier in the
proceedings and, on appeal in 2011, we concluded NWS
is subject to specific personal jurisdiction in this case
because “NWS has purposefully derived benefit from
California activities under the stream of commerce
theory.” (Harris, supra, 196 Cal.App.4th at p. 360.)
NWS argues we should reconsider our 2011 decision in
light of Walden or Bristol-Myers, cases decided by the
United States Supreme Court after 2011. We disagree.
Neither of those cases demands a different result or
requires us to revisit jurisdiction. As we explained in
the 2011 opinion, NWS is subject to personal
jurisdiction under the stream of commerce theory -- a
theory of personal jurisdiction neither addressed nor
applied in Walden or Bristol-Myers. (Walden v. Fiore
(2014) 571 U.S. 277 [188 L.Ed.2d 12]; Bristol-Myers
Squibb Co. v. Superior Court (2017) 582 U.S. __ [198
L.Ed.2d 395].) More importantly, the facts in those
cases are highly distinguishable. (Walden, at p. 291
[188 L.Ed.2d at p. 24] [where the “relevant conduct
occurred entirely in Georgia . . . the mere fact that [the]
conduct affected plaintiffs with connections to [Nevada]
d[id] not suffice to authorize [personal] jurisdiction”
over the defendant in Nevada]; Bristol-Myers Squibb
Co., at p. __ [198 L.Ed.2d at pp. 404-405] [no personal
jurisdiction over drug manufacturer in California
where nonresidents were not prescribed the drug in
California, did not purchase or ingest the drug in
California, and were not injured by the drug in
California, and the fact that other plaintiffs were
prescribed, obtained, and ingested the drug in
California -- and allegedly sustained the same injuries

App. 14
as the nonresidents -- did not warrant specific
jurisdiction over the nonresidents’ claims].)
Whereas a connection between the forum and the
specific claims against the defendants was lacking in
Walden and Bristol-Myers, here we held NWS had
substantial contacts with California. As this court
previously explained, NWS sold millions of cigarettes
to Big Sandy, a tribe with only 431 members, and the
cigarettes were in turn sold to the general public.
(Harris, supra, 196 Cal.App.4th at pp. 363-364.)
“Placing goods in the stream of commerce with the
expectation that they eventually will be purchased by
consumers in the forum state indicates an intention to
serve that market and constitutes purposeful
availment” where, as in this case, the income earned by
NWS was substantial. (Harris, at p. 364.)
The trial court also did not err in declining to
relitigate the issue of personal jurisdiction. The law of
the case doctrine cemented our 2011 personal
jurisdiction decision, rendering it binding on the trial
court and in this appeal. “ ‘ “The doctrine of the law of
the case is this: That where, upon an appeal, the
[reviewing] court, in deciding the appeal, states in its
opinion a principle or rule of law necessary to the
decision, that principle or rule becomes the law of the
case and must be adhered to throughout its subsequent
progress, both in the lower court and upon subsequent
appeal . . . and this although in its subsequent
consideration this court may be clearly of the opinion
that the former decision is erroneous in that
particular.” ’ ” (People v. Stanley (1995) 10 Cal.4th 764,
786.)

App. 15
Our 2011 opinion stands; NWS is subject to
personal jurisdiction for the claims asserted against it
in this litigation.
B
Indian Commerce Clause Preemption
Distilled to its essence, NWS argues the Attorney
General’s claims are preempted because the Indian
Commerce Clause precludes application of state laws
(such as the Directory Statute and the Fire Safety Act)
to on-reservation transactions between Indians (which
NWS believes is the nature of the transactions at issue
in this case). This is not the first time NWS has raised
this argument in a state enforcement action relating to
the sale of contraband cigarettes. Indeed, both the
Oklahoma and Idaho Supreme Courts have considered
and rejected NWS’s preemption defense in analogous
enforcement actions under similar circumstances.
(Edmondson, supra, 237 P.3d 199; State ex rel. Wasden
v. Native Wholesale Supply Co. (2013) 155 Idaho 337
[312 P.3d 1257] (Wasden).)
1
The Guiding Principles
“Indian tribes do not have an automatic exemption
from state law.” (Confederated Tribes of Siletz Indians
v. Oregon (9th Cir. 1998) 143 F.3d 481, 486.) “ ‘[There]
is no rigid rule by which to resolve the question
whether a particular state law may be applied to an
Indian reservation or to tribal members.’ “ (People v.
McCovey (1984) 36 Cal.3d 517, 524.) However,
generally, “[s]tate jurisdiction is pre-empted by the
operation of federal law if it interferes or is

App. 16
incompatible with federal and tribal interests reflected
in federal law, unless the state interests at stake are
sufficient to justify the assertion of state authority.”
(New Mexico v. Mescalero Apache Tribe (1983) 462 U.S.
324, 334 [76 L.Ed.2d 611, 620].)
“Congress has broad power to regulate tribal affairs
under the Indian Commerce Clause, Art. 1, § 8, cl. 3.[4]
[Citation.] This congressional authority and the ‘semiindependent position’ of Indian tribes have given rise
to two independent but related barriers to the assertion
of state regulatory authority over tribal reservations
and members. First, the exercise of such authority may
be pre-empted by federal law. [Citations.] Second, it
may unlawfully infringe ‘on the right of reservation
Indians to make their own laws and be ruled by them.’
[Citations.] The two barriers are independent because
either, standing alone, can be a sufficient basis for
holding state law inapplicable to activity undertaken
on the reservation or by tribal members. They are
related, however, in two important ways. The right of
tribal self-government is ultimately dependent on and
subject to the broad power of Congress. Even so,
traditional notions of Indian self-government are so
deeply engrained in our jurisprudence that they have
provided an important ‘backdrop,’ [citation], against
which vague or ambiguous federal enactments must
always be measured.

4

The Indian Commerce Clause provides: “The Congress shall have
power . . . [t]o regulate commerce . . . with the Indian tribes.” (U.S.
Const., art. I, § 8, cl. 3.)

App. 17
“The unique historical origins of tribal sovereignty
make it generally unhelpful to apply to federal
enactments regulating Indian tribes those standards of
pre-emption that have emerged in other areas of the
law. Tribal reservations are not States, and the
differences in the form and nature of their sovereignty
make it treacherous to import to one notions of preemption that are properly applied to the other. The
tradition of Indian sovereignty over the reservation and
tribal members must inform the determination
whether the exercise of state authority has been preempted by operation of federal law. [Citation.] As we
have repeatedly recognized, this tradition is reflected
and encouraged in a number of congressional
enactments demonstrating a firm federal policy of
promoting tribal self-sufficiency and economic
development. Ambiguities in federal law have been
construed generously in order to comport with these
traditional notions of sovereignty and with the federal
policy of encouraging tribal independence. [Citation.]
We have thus rejected the proposition that in order to
find a particular state law to have been pre-empted by
operation of federal law, an express congressional
statement to that effect is required. [Citation.] At the
same time any applicable regulatory interest of the
State must be given weight, [citation], and ‘automatic
exemptions “as a matter of constitutional law” ‘ are
unusual. [Citation.]
“When on-reservation conduct involving only
Indians is at issue, state law is generally inapplicable,
for the State’s regulatory interest is likely to be
minimal and the federal interest in encouraging tribal
self-government is at its strongest. [Citations.] More

App. 18
difficult questions arise where . . . a State asserts
authority over the conduct of non-Indians engaging in
activity on the reservation. In such cases we have
examined the language of the relevant federal treaties
and statutes in terms of both the broad policies that
underlie them and the notions of sovereignty that have
developed from historical traditions of tribal
independence. This inquiry is not dependent on
mechanical or absolute conceptions of state or tribal
sovereignty, but has called for a particularized inquiry
into the nature of the state, federal, and tribal interests
at stake, an inquiry designed to determine whether, in
the specific context, the exercise of state authority
would violate federal law.”5 (White Mountain Apache
Tribe v. Bracker (1980) 448 U.S. 136, 142-145 [65
L.Ed.2d 665, 672-673], fns. omitted (Bracker).)

5

NWS asserts this paragraph in Bracker delineates two
preemption analyses: (1) a per se rule of preemption if the state
seeks to regulate on-reservation transactions between tribal
members; and (2) a balancing-of-the-interest test when the state
seeks to regulate on-reservation transactions between tribal
members and nontribal members. We disagree. As the Attorney
General explains: “Read in context, and paying attention to
language NWS ignores, the half-sentence NWS relies on is just
part of an example of application of the balancing test, not a
separate, per se, rule: ‘When on-reservation conduct involving only
Indians is at issue, state law is generally [not always, as NWS
contends] inapplicable, for the State’s regulatory interest is likely
to be minimal and the federal interest in encouraging tribal selfgovernment is at its strongest.’ ” The United States Supreme Court
has also expressly rejected the idea of a per se rule, except “[i]n the
special area of state taxation of Indian tribes and tribal members.”
(California v. Cabazon Band of Indians (1987) 480 U.S. 202, 214215 & fn. 17 [94 L.Ed.2d 244, 258-259].)

App. 19
2
The Oklahoma And Idaho Supreme Court Decisions
a
Oklahoma
Oklahoma sued NWS for violation of that state’s
statute analogous to the Directory Statute, called the
Master Settlement Agreement Complementary Act (OK
Complementary Act).6 (Edmondson, supra, 237 P.3d at
pp. 203-204.) NWS purchased the cigarettes in Canada,
stored them “in several locations in the United States,
including the Free Trade Zone in Las Vegas, Nevada,”
and sold the cigarettes to a tribal entity known as
Muscogee Creek Nation Wholesale in Oklahoma. (Id. at
pp. 207-208.)
The Oklahoma Supreme Court considered the
doctrine of tribal immunity to determine if the state
had a remedy against NWS for violation of the OK
Complementary Act and preemption under the Indian
Commerce Clause to determine whether the state had
a right to enforce NWS’s noncompliance with state law.
(Edmondson, supra, 237 P.3d at pp. 209-210.) The

6

The legislation “obligates all tobacco product manufacturers
whose products are sold in Oklahoma to provide the Attorney
General’s office with an annual certification that the manufacturer
has either signed on to participate in the MSA or is fully compliant
with the qualifying statute’s escrow requirement” and “makes it
unlawful for any person to ‘sell or distribute . . . or acquire, hold,
own, possess, transport, import, or cause to be imported cigarettes
that the person knows or should know are intended for distribution
or sale in the State in violation of the Complementary Act.’ “
(Edmondson, supra, 237 P.3d at pp. 203, 204.)

App. 20
court found neither tribal immunity nor preemption
applied.
With respect to the preemption analysis, NWS
argued “that transactions between Native Americans -‘tribal to tribal transactions’ -- are beyond the reach of
state regulatory power.” (Edmondson, supra, 237 P.3d
at p. 215.) The court disagreed, explaining: “While
Native Wholesale Supply does not say so expressly, it
seems to be arguing that there is a dormant or negative
aspect to the Indian Commerce Clause analogous to
that found in the Interstate Commerce Clause. By
granting to Congress the power to regulate Indian
commerce, [NWS] implies, the Indian Commerce
Clause forbids states to regulate such commerce. We
see no support for such an interpretation of the Indian
Commerce Clause in the jurisprudence of the United
States Supreme Court, whose decisions clearly
establish that the Indian Commerce Clause does not ‘of
its own force’ automatically bar all state regulation of
Indian commerce. Rather, each state assertion of
authority over tribal land and tribal members must be
examined in light of the Indian sovereignty principles
developed by the Supreme Court for conformity to
federal law.” (Ibid., fn. omitted.)
The court continued: “Even accepting for the sake of
argument that Native Wholesale Supply’s transactions
with Muscogee Creek Nation Wholesale take place on
the Seneca Cattaraugus Indian Territory in New York
because the business is located and accepts orders
there, [NWS’s] argument that enforcement of the [OK]
Complementary Act against it violates the Indian
Commerce Clause is clearly wrong. There is no blanket

App. 21
ban on state regulation of inter-tribal commerce even
on a reservation. The Supreme Court has ruled
precisely on that point by allowing state taxation of
retail sales made on-reservation by tribal retailers to
Native Americans who are not members of the
governing tribe. The transactions at issue in this case
are between a Sac and Fox chartered corporation
operating on the tribal land of another tribe with a
third tribe, the Muscogee Creek Nation. Such
transactions are not beyond the reach of state
authority.
“In reality, Native Wholesale Supply’s transactions
with Muscogee Creek Nation Wholesale extend beyond
the boundaries of any single ‘reservation.’ The
cigarettes at issue are manufactured in Canada,
shipped into the United States, and stored in a Free
Trade Zone in Nevada. Muscogee Creek Nation
Wholesale places orders for cigarettes from its
‘reservation’ located within the territorial boundaries
of this State to Native Wholesale Supply at the latter’s
principal place of business on another ‘reservation’ in
another State. Delivery of the cigarettes to Muscogee
Creek Nation Wholesale requires shipment of the
cigarettes from Nevada to the purchaser’s tribal land in
Oklahoma. The entire process comprising these sales
thus takes place in multiple locations both on and off
different tribal lands. This is not on-reservation
conduct for purposes of Indian Commerce Clause
jurisprudence, but rather off-reservation conduct by
members of different tribes. Therefore, Oklahoma’s
enforcement of the [OK] Complementary Act against
Native Wholesale Supply passes muster without even
evaluating it under the Bracker interest balancing test.

App. 22
‘Absent express federal law to the contrary, Indians
going beyond reservation boundaries have generally
been held subject to non-discriminatory state law
otherwise applicable to all citizens of the State.’ The
[OK] Complementary Act is a law of general
application and there is no evidence that it is applied
to Native-American cigarette wholesalers in a
discriminatory manner.” (Edmondson, supra, 237 P.3d
at pp. 215-216, fn. omitted.)
The court further concluded “the State’s interest in
enforcing the MSA through the [OK] Complementary
Act would outweigh any interest the tribe or federal
government might have in prohibiting its enforcement
against Native Wholesale Supply.” (Edmondson, supra,
237 P.3d at p. 216.)
b
Idaho
Idaho sued NWS seeking a permanent injunction
and civil penalties for, in part, violation of that state’s
statute analogous to the Directory Act, also called the
Complementary Act (ID Complementary Act).7
(Wasden, supra, 312 P.3d at pp. 1259-1260.) NWS had
sold over 100 million noncompliant cigarettes
wholesale to Warpath, an Idaho corporation owned by
a member of the Coeur d’Alene tribe and operated

7

The ID Complementary Act “requires every tobacco manufacturer
that sells cigarettes in Idaho to annually certify compliance with
the requirements of the [MSA]. The State of Idaho maintains a
registry of such compliant manufacturers. It is unlawful to sell
cigarettes from a non-compliant manufacturer within the state of
Idaho.” (Wasden, supra, 312 P.3d at p. 1259.)

App. 23
solely on the tribe’s reservation. (Id. at p. 1259.) As in
this case, NWS purchased the cigarettes in Canada and
stored them “in a foreign trade zone in Nevada.” (Id. at
pp. 1259-1260.) The cigarettes were shipped from
Nevada to the Coeur d’Alene tribe’s reservation. (Id. at
p. 1260.) The state obtained an injunction prohibiting
NWS from selling noncompliant cigarettes and was
awarded $214,200 in civil penalties. (Ibid.)
NWS appealed, asserting as one of the bases for the
appeal that “because it is owned by a tribal member
and it operates on an Indian reservation, the State
lacks subject matter jurisdiction to regulate its
transactions with Warpath.” (Wasden, supra, 312 P.3d
at p. 1261.) The Idaho Supreme Court disagreed.
Relying on a federal district court case, the Idaho
Supreme Court said: “A ‘corporation is not an Indian
for purposes of immunity from state taxation.’ “ (Id. at
p. 1262.) The court continued: “there is no indication
that the corporation is acting as a surrogate for the
tribe itself. There is nothing to suggest that it is
controlled by the tribe or operated for tribal
governmental purposes. The fact that NWS is operated
on a different reservation than the one under which it
is organized suggests that it is not connected to tribal
business. Thus, we hold that, as a corporation, NWS is
not an Indian.” (Ibid.)
NWS also argued “that even if it is found not to be
an Indian, the Indian Commerce Clause prevents the
State from regulating its transactions with Warpath
because it is selling cigarettes strictly to a reservationbased retailer. When a state desires to regulate nonIndians inside Indian Country, the U.S. Supreme Court

App. 24
has employed a balancing test to determine whether
the state’s authority has been preempted by federal
law.” (Wasden, supra, 312 P.3d at p. 1262.) The Idaho
Supreme Court agreed with the district court’s finding
that “NWS’s activities occurred off reservation and the
Bracker balancing test was not applicable.” (Id. at
p. 1263.) The court explained:
“ ‘Absent express federal law to the contrary,
Indians going beyond reservation boundaries have
generally been held subject to non-discriminatory state
law otherwise applicable to all citizens of the State.’
[Citations.] In other words, whether a member of a
tribe or not, when a person operates outside of
reservation boundaries, the Bracker test does not
apply. For this reason, tribal members operating
outside reservation boundaries have been subject to
state regulation. [Citations.] [¶] Thus, the location of
the activity can be an important factor in analyzing
state regulation where Indian commerce is implicated.
Here, however, the activity is not occurring strictly on
the reservation. We decline NWS’s invitation to
characterize the activity as merely the sale of
cigarettes to Warpath on the Coeur d’Alene
reservation. NWS’s activities are far broader than just
sales to Warpath. The activity at issue here extends
beyond the borders of the reservation. Looking at
NWS’s activity as a whole, it cannot be characterized as
an on-reservation activity. NWS is operated on the
Seneca reservation in New York, but is organized
under the laws of a separate tribe. It purchases
cigarettes that are manufactured in Canada. It stores
those cigarettes in a foreign trade zone in Nevada. It
then ships those cigarettes from Nevada into Idaho.

App. 25
NWS’s activities in this case are not limited to a single
reservation, or even several reservations. Thus, we
hold that NWS’s importation of non-compliant
cigarettes into Idaho is an off-reservation activity and
is therefore not subject to a Bracker analysis.” (Wasden,
supra, 312 P.3d at p. 1263, fn. omitted.)
3
The Indian Commerce Clause Is Inapplicable
NWS argues it qualifies as an “Indian” for purposes
of the Indian Commerce Clause analysis in two ways:
(1) by regulation under California law because it is an
Indian-owned corporation; and (2) derivatively through
its owner’s tribal member status based on United
States Supreme Court precedent. We disagree.
The California regulation upon which NWS relies
exempts “Indians,” as the term is defined therein, from
certain sales and use tax obligations. (Cal. Code Regs.,
tit. 18, § 1616, subd. (d).) The term “Indian” is defined
to include “corporations organized under tribal
authority and wholly owned by Indians.”8 (Ibid.)
The regulation has no application here. In the
Revenue and Taxation Code, the statutes governing the

8

NWS does not argue (nor is there any evidence to suggest) that
the corporation is an arm of a tribal government and, therefore,
immune from suit. (See Agua Caliente Band of Cahuilla Indians
v. Superior Court (2006) 40 Cal.4th 239, 247-248 [“ ‘Although
[Indian tribal] immunity extends to entities that are arms of the
tribes, it apparently does not cover tribally chartered corporations
that are completely independent of the tribe’ ”]; cf., e.g., Allen v.
Gold Country Casino (9th Cir. 2006) 464 F.3d 1044, 1046-1047
[casino considered arm of the tribe].)

App. 26
“Sales and Use Tax” and the “Cigarette Tax” are
located in separate parts of the code (see Rev. & Tax.
Code, §§ 6001 et seq. [Part 1 -- sales and use taxes],
30001 et seq. [Part 13 -- cigarette tax]), and have been
implemented through distinct sets of regulations in
different chapters of the California Code of Regulations
(see Cal. Code Regs., tit. 18, §§ 1500 et seq. [sales and
use tax regulations], 4001 et seq. [cigarette tax
regulations]). The Directory Statute is located within
the Cigarette Tax part of the code, and none of the
statutes contained therein nor the implementing
regulations relating thereto contain a provision like the
one upon which NWS relies. The Fire Safety Act is
even further removed from the regulation because it is
located in the Health and Safety Code not the Revenue
and Taxation Code. We find no indication from the
language in the sales and use tax statutes or
regulations that the definition of “Indian” under
California Code of Regulations, title 18, section 1616,
subdivision (d) was intended to apply in any context
other than the sales and use tax exemptions at issue in
that provision.
The United States Supreme Court’s Hobby Lobby
opinion does not bring NWS within the ambit of the
Indian Commerce Clause either. (Burwell v. Hobby
Lobby Stores, Inc. (2014) 573 U.S. __ [189 L.Ed.2d
675].) NWS argues Hobby Lobby supports the
conclusion that “closely held corporations, like NWS,
take on the constitutionally enshrined rights of their
owners.” It believes the case “makes it clear that
Arthur Montour, an Indian, was not divested of his
status as an Indian simply because he elected to
incorporate, rather than operate as a sole

App. 27
proprietorship.” Thus, NWS seeks to cloak itself in
tribal membership status derivatively through
Montour’s Seneca tribal membership. A reading of
Hobby Lobby makes clear, however, that NWS’s
argument finds no footing in the text of the opinion.9
Hobby Lobby dealt with the interpretation and
application of a specific statute, the Religious Freedom
Restoration Act of 1993 (RFRA). The United States
Supreme Court considered whether a federal agency
could, pursuant to RFRA, “demand that three closely
held corporations provide health-insurance coverage for
methods of contraception that violate the sincerely held
religious beliefs of the companies’ owners.” (Burwell v.
Hobby Lobby Stores, Inc., supra, 573 U.S. at p. __ [189
L.Ed.2d at p. 686].) The court found it could not -- “the
regulations that impose[d] this obligation violate[d]
RFRA, which prohibits the Federal Government from
taking any action that substantially burdens the
exercise of religion unless that action constitutes the

9

We note that even if NWS could cloak itself in Montour’s tribal
membership, it would not transform the transactions with Big
Sandy into “Indian-to-Indian” transactions, as NWS claims. That
is because there is no constitutional or statutory right afforded to
an Indian of one tribe (such as Montour) to conduct business free
from state regulation with an Indian of a different tribe (such as
a member of Big Sandy) under the Indian Commerce Clause.
(People ex rel. Becerra v. Rose (2017) 16 Cal.App.5th 317, 329
[nonmember Indians (i.e., Indians who are not members of the
governing tribe) stand on the same footing as non-Indians for
purposes of the Indian commerce clause]; Rice v. Rehner (1983) 463
U.S. 713, 720, fn. 7 [77 L.Ed.2d 961, 971] [“Indians resident on the
reservation but nonmembers of the governing tribe ‘stand on the
same footing as non-Indians resident on the reservation’ insofar as
[state regulation] is concerned”].)

App. 28
least restrictive means of serving a compelling
government interest.” (Ibid.)
The court rejected the federal agency’s argument
that “the owners of the companies forfeited all RFRA
protection when they decided to organize their
businesses as corporations rather than sole
proprietorships or general partnerships” based on its
reading of the statute. (Burwell v. Hobby Lobby Stores,
Inc., supra, 573 U.S. at p. __ [189 L.Ed.2d at p. 686].)
The court explained: “RFRA applies to ‘a person’s’
exercise of religion, [citations], and RFRA itself does
not define the term ‘person.’ We therefore look to the
Dictionary Act, which we must consult ‘[i]n
determining the meaning of any Act of Congress,
unless the context indicates otherwise.’ [Citation.] [¶]
Under the Dictionary Act, ‘the wor[d] “person” . . .
include[s] corporations, companies, associations, firms,
partnerships, societies, and joint stock companies, as
well as individuals.’ [Citations.] Thus, unless there is
something about the RFRA context that ‘indicates
otherwise,’ the Dictionary Act provides a quick, clear,
and affirmative answer to the question whether the
companies involved in these cases may be heard.” (Id.
at p. __ [189 L.Ed.2d at p. 696].) The court concluded
“[t]he plain terms of RFRA make it perfectly clear that
Congress did not discriminate in this way against men
and women who wish to run their businesses as forprofit corporations in the manner required by their
religious beliefs.” (Id. at p. __ [189 L.Ed.2d at p. 686].)
The United States Supreme Court did not consider
or discuss the extension of any protections from a
company’s owners to the corporation outside the

App. 29
context of RFRA. More specifically, the Indian
Commerce Clause does not contain the word “person”
as defined by the Dictionary Act or as discussed in
Hobby Lobby. NWS points us to no federal statute, nor
are we aware of any, that includes a corporation within
the definition of Indian, tribe, or tribal member. Thus,
Hobby Lobby is wholly irrelevant to the issue at hand.
NWS has provided no legitimate basis for
concluding it qualifies as a tribal member. It is thus
considered a non-Indian for purposes of the Indian
Commerce Clause analysis.
NWS’s non-Indian status does not, however, dispose
of the preemption defense. If the liability-creating
conduct occurred on-reservation, we must further
conduct a balancing-of-the-interest analysis as
provided in Bracker. (Bracker, supra, 448 U.S. at
pp. 144-145 [65 L.Ed.2d at p. 673].) On the other hand,
if the liability-creating conduct occurred offreservation, no such analysis is necessary and we may
conclude the Indian Commerce Clause does not apply.
We therefore next consider the geographical reach of
the transactions as applied under the Directory Statute
and the Fire Safety Act.
The United States Supreme Court “has repeatedly
emphasized that there is a significant geographical
component to tribal sovereignty” in determining
whether state authority has exceeded the permissible
limits. (Bracker, supra, 448 U.S. at p. 151 [65 L.Ed.2d
at p. 677]; Mescalero Apache Tribe v. Jones (1973) 411
U.S. 145, 148-149 [36 L.Ed.2d 114, 119] [“Absent
express federal law to the contrary, Indians going
beyond reservation boundaries have generally been

App. 30
held subject to nondiscriminatory state law otherwise
applicable to all citizens of the State”].) To determine
whether a transaction is off-reservation or onreservation for purposes of analyzing the applicability
of the Indian Commerce Clause, we must determine
where the party bearing the legal incidence of the
regulation conducted the liability-creating conduct.
(See Wagnon v. Prairie Band Potawatomi (2005) 546
U.S. 95, 105-110 [163 L.Ed.2d 429, 439-442].)
We agree with the Oklahoma and Idaho Supreme
Courts that the Indian Commerce Clause was not
intended to cloak in sovereignty the type of
transactions at issue here. (Edmondson, supra, 237
P.3d at pp. 215-216; Wasden, supra, 312 P.3d at
p. 1263.) Like NWS’s transactions in violation of the
OK Complementary Act in Edmondson and the ID
Complementary Act in Wasden -- statutes analogous to
the Directory Act -- NWS’s activity in this case involved
violations of the Directory Act occurring offreservation. (See ibid.)
Revenue and Taxation Code section 30165.1,
subdivision (e)(2) provides that a corporation shall not
ship or otherwise distribute contraband cigarettes into
or within California (irrespective of where the
cigarettes were ultimately sold), and subdivision (e)(3)
provides that a corporation shall not transport, import,
or cause to be imported cigarettes knowing the
cigarettes are intended to be distributed in violation of
subdivision (e)(2). (See also Rev. & Tax. Code, § 30010.)
Here, NWS arranged for the transport of millions of
contraband cigarettes to Big Sandy in California.
(Harris, supra, 196 Cal.App.4th at p. 362.) NWS does

App. 31
not dispute the trial court’s factual finding that NWS
had the requisite knowledge, and there is no evidence
that the contraband cigarettes somehow avoided
passing through California.
Thus, the legal incidence of the penalties and
liability under the Directory Statute attached before
the contraband cigarettes reached Big Sandy’s
reservation -- while the cigarettes were on their way to
their final destination and after they breached the
California border.10 Under such circumstances, the
Bracker test is inapplicable.11 (See Wagnon v. Prairie
10

The trial court noted: “NWS attempts to dispute almost all of the
[Attorney General’s] material facts with evidence that it sold
cigarettes to Big Sandy, a federally recognized tribe, on sovereign
land, in transactions that were [freight on board] New York with
title and risk of loss transferring to Big Sandy before the products
entered into California.” The trial court disregarded the argument
because it “ha[d] sustained the [Attorney General’s] objections to
the evidence on this point.” NWS does not challenge the trial
court’s finding in that regard.
11

Black Hawk is of no assistance to NWS. NWS asserts “Black
Hawk recognized that Black Hawk, a company owned by an
enrolled member of the Sac and Fox Nation, a federally-recognized
Indian tribe from Oklahoma, was legally permitted to sell offdirectory cigarettes to any federally-recognized tribe of California.
As such, NWS, a company chartered under the laws of the Sac and
Fox Nation of Oklahoma, and owned by an enrolled member of the
Seneca Nation of Indians, should not have been penalized by the
lower court for selling off-directory cigarettes to Big Sandy
Rancheria, a federally-recognized tribe located within California.”
However, NWS relies on a paragraph in the “Factual and
Procedural Background” of the opinion, which merely recites the
trial court’s preliminary injunction ruling. (People ex rel. Harris v.
Black Hawk Tobacco, Inc. (2011) 197 Cal.App.4th 1561, 15661567.) The appellate court neither considered nor endorsed the

App. 32
Band Potawatomi Nation, supra, 546 U.S. at p. 113
[163 L.Ed.2d at p. 444] [“If a State may apply a
nondiscriminatory tax to Indians who have gone
beyond the boundaries of a reservation, then it follows
that it may apply a nondiscriminatory tax where, as
here, the tax is imposed on non-Indians as a result of
an off-reservation transaction. In these circumstances,
the interest-balancing test set forth in Bracker is
inapplicable”].)
The location of the conduct to which the Fire and
Safety Act liability attaches is not as clear; but, as we
explain, preemption nonetheless does not apply. Health
and Safety Code section 14955, subdivision (a)
provides: “A manufacturer or any other person or entity
that knowingly sells or offers to sell cigarettes other
than through retail sale in violation of this part is
subject to a civil penalty not to exceed ten thousand
dollars ($10,000) for each sale.”12 “Sale” is defined as
“any transfer, exchange, or barter, in any manner or by
any means whatever, or any agreement for these
purposes.” (Health & Saf. Code, § 14950, subd. (b)(10).)
Whether the sales of the contraband cigarettes
occurred on the Seneca reservation, the Big Sandy
reservation, or somewhere in between is immaterial to
the outcome of this case. That is because California’s
interests in regulating the conduct at issue are
propriety of the preliminary injunction’s language, and the opinion
contains no discussion in that regard. A decision is not authority
for propositions not considered. (McDowell & Craig v. City of Santa
Fe Springs (1960) 54 Cal.2d 33, 38.)
12

The trial court noted: “NWS has admitted that the sales were
not retail sales.”

App. 33
sufficient to justify the assertion of state authority
under the Bracker balancing-of-the-interests test in
any event.
“ ‘The California Cigarette Fire Safety and
Firefighter Protection Act -- providing ignitionpropensity requirements -- serves the public interest in
reducing fires caused by cigarettes. . . . [And n]o federal
or tribal interest outweighs the state’s interest in . . .
enforcing the California tobacco directory and cigarette
fire safety laws.’ ” (People ex rel. Becerra v. Huber,
supra, 32 Cal.App.5th at pp. 549-550, agreeing with
People ex rel. Harris v. Black Hawk Tobacco, Inc. (2011)
197 Cal.App.4th 1561 & People ex rel. Becerra v. Rose,
supra, 16 Cal.App.5th at p. 328; see also Washington v.
Confederated Tribes of the Colville Reservation (1980)
447 U.S. 134 [65 L.Ed.2d 10] [state may regulate onreservation cigarettes sales between tribal members
and nonmembers].)
We need not address the geography of the liabilitycreating conduct for purposes of Business and
Professions Code section 17200 because the cause of
action is predicated on violations of the Directory
Statute, Fire Safety Act, and a federal statute. We have
already determined the Directory Statute and the Fire
Safety Act are not preempted under the Indian
Commerce Clause, and the federal statute is not
subject to the preemption analysis.
C
Equal Protection
The equal protection clause of the Fourteenth
Amendment directs no state shall “deny to any person

App. 34
within its jurisdiction the equal protection of the laws.”
(U.S. Const., 14th Amend., § 1.) It generally requires
the government to treat similarly situated people alike.
(Cleburne v. Cleburne Living Center (1985) 473 U.S.
432, 439 [87 L.Ed.2d 313, 320].) In opposition to the
Attorney General’s motion for summary judgment,
NWS argued the Directory Statute violates the equal
protection clause based on race discrimination and
genuine issues of material fact existed regarding the
legislative intent behind the statute’s enactment. As
explained ante, we review the trial court’s denial of this
defense de novo.
Our review rests on the resolution of one pivotal
question: Is the corporation considered an “Indian”?
That is because NWS’s defense is grounded in the
singular argument that the Directory Statute “impacts
or singles out an identifiable group of people for
particular or special treatment, in this case, Indians,”
like NWS.13 The decisiveness of this question hails from
the fundamental premise that a charge of
unconstitutional discrimination can only be raised by
the person or a member of the class of persons

13

Although NWS’s equal protection defense in its verified answer
stated, “[t]he state laws on which each and every cause of action
alleged in the Complaint is based, and the Master Settlement
Agreement from which the state’s tobacco directory law [citation]
derives, impermissibly discriminate against Indian tribal
members, Indian tribes, Native cigarette manufacturers, and
entities that sell or desire to sell Native-made cigarettes to Indian
tribal members or Indian tribes, or both,” NWS’s opposition to the
motion for summary judgment on the ground of equal protection
was based solely on the Directory Act as applied to NWS, as an
Indian.

App. 35
discriminated against. (Rubio v. Superior Court (1979)
24 Cal.3d 93, 103.) The limited exception to this rule in
cases where no member of the class would ever be in a
position to complain of the discrimination is not at
issue here. (Ibid.)
As we explained ante, neither California Code of
Regulations section 1616, title 18, subdivision (d) nor
Hobby Lobby supports the conclusion that NWS is an
Indian. NWS raises no alternate argument in support
of its equal protection defense. Accordingly, NWS’s
equal protection defense fails for lack of standing and
we need not address the merits.
II
The Discovery Orders
NWS challenges five discovery rulings in which the
trial court denied its motions to compel further
responses and production of documents by the Attorney
General and granted motions for protective orders and
to quash a nonparty deposition subpoena relating to
discovery propounded by NWS. A trial court’s discovery
rulings are reviewed for abuse of discretion. (Costco
Wholesale Corp. v. Superior Court (2009) 47 Cal.4th
725, 733.) Further, as we explained in Lickter, when a
party does not seek writ review of the trial court’s
discovery rulings and instead appeals from a judgment
to obtain review of those discovery orders, the party
must also show the error was prejudicial; i.e., the party
must show that it is reasonably probable the outcome
would have been more favorable to the party had the
trial court not erred in the discovery rulings. (Lickter v.
Lickter (2010) 189 Cal.App.4th 712, 740; accord
MacQuiddy v. Mercedes-Benz USA, LLC (2015) 233

App. 36
Cal.App.4th 1036, 1045.) NWS has the burden to make
an affirmative showing that the erroneous discovery
ruling resulted in a miscarriage of justice. (MacQuiddy,
at p. 1045; Carolina Casualty Ins. Co. v. L.M. Ross Law
Group, LLP (2012) 212 Cal.App.4th 1181, 1197-1198.)
Here, we need not delve into the substance of the
discovery rulings or decide whether the rulings were an
abuse of discretion because, even assuming they were,
NWS has failed to demonstrate it is reasonably
probable the outcome of the motions for summary
judgment would have been more favorable to it had the
trial court ruled in its favor on the discovery motions.
(Conservatorship of Maria B. (2013) 218 Cal.App.4th
514, 532-533 [appellant bears burden to make
affirmative showing the trial court committed error
and that error resulted in a miscarriage of justice].)
Indeed, NWS does not even attempt to make this
showing, arguing instead that it “is not required to
establish that it was prejudiced by the lower court’s
discovery rulings” because “[p]rejudice need only be
found in instances where a party is appealing a final
judgment made pursuant to a court error which
occurred during trial - not in appeals of discovery
motions.” NWS fails to provide any clarification for this
statement and cites no authority for this proposition
either; and, in any event, it is plainly wrong in light of
this court’s established legal precedent. NWS did not
seek writ review of the discovery orders and now seeks
to attack those orders on appeal from a judgment
against it. Therefore, it is required to show prejudice.
(Lickter v. Lickter, supra, 189 Cal.App.4th at p. 740.)

App. 37
“[W]e cannot presume prejudice and will not reverse
the judgment in the absence of an affirmative showing
there was a miscarriage of justice. [Citations.] Nor will
this court act as counsel for appellant by furnishing a
legal argument as to how the trial court’s ruling was
prejudicial.” (Century Surety Co. v. Polisso (2006) 139
Cal.App.4th 922, 963.) Because there is no showing of
prejudicial error, we affirm the trial court’s discovery
rulings.
III
The Motion For Attorney Fees
A
The Order Generally
The Attorney General sought $4,017,708.75 in
attorney fees, representing 9,174.74 hours of legal work
in this matter.14 The trial court applied the lodestar
method to determine the appropriate amount of the
attorney fee award.
Under the lodestar method, attorney fees are
calculated by multiplying the number of hours
reasonably expended by the reasonable hourly rate
prevailing in the community for similar work. (PLCM
Group, Inc. v. Drexler (2000) 22 Cal.4th 1084, 1095.)
“The lodestar figure may then be adjusted, based on
consideration of factors specific to the case, in order to
fix the fee at the fair market value for the legal services
provided.” (Ibid.)

14

The Attorney General also requested expert expenses in the
amount of $4,372.50, which is not at issue in this appeal.

App. 38
In its order, the trial court described the case as
follows: “This case has a long protracted history
involving removal to and remand from Federal Court,
extensive litigation related to the issue of whether
personal jurisdiction existed over NWS including
appeals to the Third District Court of Appeals [sic], and
NWS’s bankruptcy and attempts to stay the action. The
case was designated complex and a discovery referee
was assigned. Numerous discovery motions were filed
and NWS also attempted to re-litigate the personal
jurisdiction issue on numerous occasions. Demurrers
were filed and novel issues of Tribal immunity were
raised. Ultimately, the Court granted the [Attorney
General’s] motion for summary judgment finding that
they were entitled to $4,292,500 in civil penalties and
permanent injunctive relief. The final judgment
entered on December 28, 2016 found that NWS
committed 476 violations of the Directory Statu[t]e, 229
violations of the Fire Safety Act and 96 violations of 15
U.S.C. § 376.”
The trial court noted the Attorney General
voluntarily applied a 10 percent reduction to the hours
worked on the case to account for inefficiencies in
billing and also “deducted the time spent by attorneys
who did not materially contribute to the action.” The
trial court, however, determined that a further
reduction was required. The order states: “The Court
would note, that despite the reductions made by the
[Attorney General], the billing entries do contain a
level of vagueness which suggest some inefficiency in
the billings which may not have been captured by the
voluntary reductions by the [Attorney General]. To that
end, the Court finds that an additional downward

App. 39
reduction is necessary with respect to some of the
attorney’s hours. The Court reached this conclusion
after carefully reviewing the time records. The lodestar
calculated by the [Attorney General] appears to have
already reduced 10% from the hours listed and thus in
order to reflect the additional reductions based on its
review of the records, the Court will reduce the hours
further [to] reflect what it perceives are inefficiencies
that were not captured by the [Attorney General’s] 10%
reduction. This essentially amounts to an additional
5% reduction (the Court rounded to the nearest quarter
hour).”
The trial court awarded the Attorney General
$3,843,981.25 in attorney fees and $9,119.25 in expert
expenses, for a total of $3,853,100.50.
B
The Trial Court Did Not Err
“ ‘On review of an award of attorney fees after trial,
the normal standard of review is abuse of discretion.
However, de novo review of such a trial court order is
warranted where the determination of whether the
criteria for an award of attorney fees and costs in this
context have been satisfied amounts to statutory
construction and a question of law.’ ” (Connerly v. State
Personnel Bd. (2006) 37 Cal.4th 1169, 1175.) “ ‘The
value of legal services performed in a case is a matter
in which the trial court has its own expertise.
[Citation.] ‘The trial court may make its own
determination of the value of the services contrary to,
or without the necessity for, expert testimony.
[Citations.] The trial court makes its determination
after consideration of a number of factors, including the

App. 40
nature of the litigation, its difficulty, the amount
involved, the skill required in its handling, the skill
employed, the attention given, the success or failure,
and other circumstances in the case.’ ” (PLCM Group,
Inc. v. Drexler, supra, 22 Cal.4th at p. 1096.)
NWS first raises a procedural challenge claiming
neither the trial court’s order granting the Attorney
General’s motion for summary judgment nor the final
judgment “expressly provided that the [Attorney
General is] entitled to an award of attorney’s fees,”
and, therefore, the Attorney General was not entitled
to such an award. NWS believes “[t]he lack of an
express award of attorneys’ fees is critical because a
party seeking an award of fees pursuant to Rule 3.1702
of the California Rules of Court must first obtain a
determination from the Court that it is entitled to an
award of attorneys’ fees” and no such determination
was made prior to the Attorney General’s filing of the
attorney fees motion. As NWS acknowledges, however,
the final judgment did provide that the Attorney
General was “entitled to costs in an amount to be
determined by a bill of costs,” and, as the Attorney
General correctly points out, attorney fees are an
element of costs under California law. (Meister v.
Regents of University of California (1998) 67
Cal.App.4th 437, 450 [“Statutory attorney’s fees are an
element of costs”]; Code Civ. Proc., § 1033.5, subd.
(a)(10)(B).) Further, nothing in California Rules of
Court rule 3.1702 requires the trial court to make an
express determination of entitlement to attorney fees
prior to a party filing a motion requesting such an
order. Thus, we find no merit in this argument.

App. 41
NWS’s second complaint is that the trial court did
not provide “NWS with the opportunity to conduct
limited discovery to determine if the Office of the
Attorney General has an internal policy regarding the
hourly rates of its attorneys and paralegals.” It argues
“[d]iscovery was necessary because there appeared to
be an inconsistency in the amount of fees that the
[Attorney General] requested in this case.” NWS
specifically points to a different hourly amount stated
in support of the attorney fee motion ($500) as
compared to the “state agency rate” identified by
declarations in support of prior discovery motions
($170).
The trial court rejected NWS’s request to stay the
hearing on the attorney fee motion to allow NWS an
opportunity to conduct discovery regarding the
Attorney General’s internal hourly rates policy,
explaining the Attorney General was “permitted to
seek recovery based on private sector rates and thus
the fact that the [Attorney General] may have internal
rates that are lower than such rates does not preclude
the Court from making a determination as to a
reasonable hourly rate.” We agree. Such discovery
would have been irrelevant to the trial court’s
determination of the appropriate hourly rate since the
Attorney General was entitled to the prevailing market
rates irrespective of any internal hourly rates policy.
(See Serrano v. Unruh (1982) 32 Cal.3d 621, 643 [fee
awards are properly calculated based on prevailing
market rates regardless of the actual costs to the
prevailing party]; Syers Properties III, Inc. v. Rankin
(2014) 226 Cal.App.4th 691, 701 [“There is no

App. 42
requirement that the reasonable market rate mirror
the actual rate billed”].)
NWS’s final contention is that the amount of the
attorney fee award was unreasonable. It attacks both
factors in the lodestar equation: (1) the number of
hours -- arguing the total number was excessive and
some of the hours lacked authentication, and; (2) the
hourly rate -- arguing judicial estoppel precluded the
Attorney General from seeking a greater hourly
amount than that reflected in the Attorney General’s
internal policy, and the rates were too high for the
Sacramento market. As we explain, the trial court
appropriately rejected all of these arguments.
The trial court did not abuse its discretion in
calculating the number of hours pertinent to the
lodestar formula. The trial court noted the Attorney
General voluntarily applied a 10 percent reduction to
the hours worked to account for inefficiencies in billing
and made other deductions such as deducting the time
spent by attorneys who did not materially contribute to
the action. The trial court then further reduced the
hours by another 5 percent to account for additional
inefficiencies found in the billing records. The trial
court exercised its discretion, and NWS points us to
nothing in the record suggesting the court abused its
discretion.
That eight attorneys in the Attorney General’s
Office worked on the matter (although only two of the
attorneys billed the bulk of the time) and the hours
spent by the Attorney General’s Office were greater
than those spent by NWS’s current attorneys (even
though NWS does not include the hours of its prior

App. 43
counsel in its calculation), while relevant, do not
establish an abuse of discretion by the trial court.
Additionally, NWS’s attempt to minimize the scope of
the litigation does not square with the actual history of
the case, as described by the trial court in the order.
NWS’s challenge to the authenticity of certain hours
included in the Attorney General’s attorney fee motion
fares no better. NWS argues the hours for work
performed by an attorney and a paralegal must be
disregarded because the two individuals did not
provide personal declarations of their time spent or of
their hourly rate. The trial court found sufficient a
declaration submitted by the individuals’ supervisor,
which detailed the individuals’ experience and attached
their respective time records from an electronic
timekeeping system. We are aware of no statute or case
law requiring the type of documentation NWS
demands. The trial court has the discretion to award
fees based on its own view of the number of hours
reasonably spent. (Syers Properties III, Inc. v. Rankin,
supra, 226 Cal.App.4th at p. 698.) We see no reason
why the trial court could not accept the supervisor’s
declaration attesting to the hours entered into the
electronic timekeeping system, particularly since the
trial court was in the best position to verify the claims
given the proceedings before it. Thus, we find no abuse
of discretion.
Turning to the amount of the attorney fees, NWS
argues the trial court should have rejected the Attorney
General’s asserted rate of $500 per hour for the work of
attorney Michelle Hickerson on judicial estoppel
grounds because she submitted a sworn declaration in

App. 44
support of discovery motions declaring her hourly rate
to be $170 -- “a rate that is 66% less than the $500 per
hour that was awarded for Ms. Hickerson’s time.” NWS
asserts the trial court should have reduced the
Attorney General’s asserted rates for the other
attorneys by 66 percent as well, “especially because it
is likely the Office of the Attorney General has a policy
that sets hourly rates at an amount much less than
those requested in the [attorney fees motion].” The
Attorney General argues the trial court properly
rejected this argument because judicial estoppel is
inapplicable under these facts.
We agree with the trial court and the Attorney
General, the doctrine of judicial estoppel has no
application here. “ ‘ “Judicial estoppel precludes a party
from gaining an advantage by taking one position, and
then seeking a second advantage by taking an
incompatible position. [Citations.] The doctrine’s dual
goals are to maintain the integrity of the judicial
system and to protect parties from opponents’ unfair
strategies. [Citation.] Application of the doctrine is
discretionary.” ’ [Citation.] The doctrine applies when
‘(1) the same party has taken two positions; (2) the
positions were taken in judicial or quasi-judicial
administrative proceedings; (3) the party was
successful in asserting the first position (i.e., the
tribunal adopted the position or accepted it as true);
(4) the two positions are totally inconsistent; and
(5) the first position was not taken as a result of
ignorance, fraud, or mistake.’ ” (Aguilar v. Lerner
(2004) 32 Cal.4th 974, 986-987.) “It should be invoked,
however, only in egregious cases [citation] where a
party misrepresents or conceals material facts

App. 45
[citation].” (Safai v. Safai (2008) 164 Cal.App.4th 233,
246.)
The Attorney General’s use of a $170 hourly rate in
connection with discovery motions may well reflect the
office’s internal policy setting rates; however, as
explained ante, it does not preclude the Attorney
General from seeking prevailing market rates in its
attorney fee motion. The different hourly rates are also
not contradictory because one is an internal hourly rate
and the other is a prevailing market hourly rate -- one
does not necessarily exclude the other. (See Prilliman
v. United Air Lines, Inc. (1997) 53 Cal.App.4th 935, 960
[judicial estoppel cannot be invoked where the first
position was not clearly inconsistent so that holding
one position necessarily excludes the other].) Further,
NWS does not explain how (nor do we see how) the
Attorney General sought to gain an advantage by
stating the internal hourly rate of $170 in the discovery
motions, such that judicial estoppel is appropriate.
And, as the trial court noted during oral argument,
NWS did not claim any prejudice or that it would have
changed its position had it known of the different
market rate. NWS has, therefore, failed to show that
this is the type of egregious case that warrants the
application of judicial estoppel.
We also do not agree with NWS that the hourly
rates used in calculating the attorney fee award were
too high for the Sacramento area. As the trial court
said in its order: “Here, while NWS argues that the
rates requested are out of line with market rates, it
offers no evidence to counter the [Attorney General’s]
expert’s opinion (again a leading attorney’s fees expert)

App. 46
that the rates are in line with prevailing market rates
in the Sacramento legal marketplace for attorneys of
reasonably comparable experience, skill, and expertise
for reasonably comparable services.”
The unreported federal district court cases and the
California superior court case cited by NWS are of no
assistance given the factual distinctions in this case.
And, NWS’s own attorney fees, while relevant, also
does not render the Attorney General’s rates
unreasonable. (See Mountjoy v. Bank of America, N.A.
(2016) 245 Cal.App.4th 266, 281 [although “ ‘[a]
comparative analysis of each side’s respective litigation
costs may be a useful check on the reasonableness of
any fee request’ [citation], such a comparison, by itself,
cannot establish the reasonableness of a particular fee
award”].) Further, the United States Consumer Law
Attorney Fee Survey Report for 2013-2014 is irrelevant
because the trial court credited the Attorney General’s
expert’s opinion that “the report does not provide rates
for attorneys of similar skill and experience in the
Sacramento market and in any case, the requested
rates are close to or even lower than rates in that
report.” It was within the trial court’s discretion to
credit the expert’s opinion.
Ultimately, “[t]he ‘ “experienced trial judge is the
best judge of the value of professional services rendered
in his court, and while his judgment is of course subject
to review, it will not be disturbed unless the appellate
court is convinced that it is clearly wrong.” ’ ” (Ketchum
v. Moses (2001) 24 Cal.4th 1122, 1132.) The trial court’s
determination of the hourly rates was not clearly
erroneous.

App. 47
DISPOSITION
The judgment and order awarding attorney fees are
affirmed. The Attorney General shall recover his costs
on appeal. (Cal. Rules of Court, rule 8.278(a)(1) & (2).)
/s/
Robie, J.
We concur:
/s/
Blease, Acting P. J.
/s/
Mauro, J.

App. 48

APPENDIX C
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)
C063624
(Super. Ct. No. 34-2008-00014593-CU-CL-GDS)
[Filed June 8, 2011]
________________________________
THE PEOPLE ex rel. KAMALA
)
D. HARRIS, as Attorney General, )
etc.,
)
)
Plaintiff and Appellant,
)
)
v.
)
)
NATIVE WHOLESALE SUPPLY )
COMPANY,
)
)
Defendant and Respondent.
)
________________________________ )
APPEAL from a judgment of the Superior Court of
Sacramento County, Shelleyanne W.L. Chang, Judge.
Reversed.

App. 49
Edmund G. Brown, Jr., and Kamala D. Harris,
Attorneys General, Dennis Eckhart and Karen Leaf,
Assistant Attorneys General, Michelle L. Hickerson
and Michael E. Edson, Deputy Attorneys General, for
Plaintiff and Appellant.
Fredericks Peebles & Morgan, John M. Peebles and
Darcie L. Houck for Defendant and Respondent.
The State of California (the State) sued defendant
Native Wholesale Supply Company (NWS) for allegedly
violating state law on cigarette distribution1 and state
law on cigarette fire safety.
NWS moved successfully to quash service for lack of
personal jurisdiction.
NWS is an out-of-state, tribal-chartered corporation
that is owned by a Native American individual. Its
principal business is the sale and distribution of
cigarettes manufactured by Grand River Enterprises
Six Nations Ltd. (Grand River), a tribal-owned
corporation in Canada. Since late 2003, NWS has sold
hundreds of millions of Grand River cigarettes to a
small Indian tribe in California, and these cigarettes,
in turn, have been sold to the California public.
Based on this scenario, we conclude that NWS has
purposefully derived benefit from California activities
under the stream of commerce theory, sufficient to
invoke personal jurisdiction. Indeed, for personal
jurisdiction purposes, we see not just a stream of
1

The state law in question is based on the 1998 litigation
settlement agreement between American tobacco companies and
46 states. (See Rev. & Tax Code, § 30165.1.)

App. 50
commerce, but a torrent. Consequently, we shall
reverse the order quashing service and remand this
matter to the trial court. (Code Civ. Proc., § 904.1,
subd. (a)(3).)
We will set forth the pertinent facts in the
discussion that follows.
DISCUSSION
I. The Law
The constitutional limits to the exercise of personal
jurisdiction are discussed in Bridgestone Corp. v.
Superior Court (2002) 99 Cal.App.4th 767
(Bridgestone):
“A California court may exercise personal
jurisdiction to the extent allowed under the United
States Constitution and the California Constitution.
(Code Civ. Proc., § 410.10; Vons Companies, Inc. v.
Seabest Foods, Inc. [(1996)] 14 Cal.4th [434,] 444.)
Under the Fourteenth Amendment due process clause,
a state court may exercise personal jurisdiction over a
nonresident defendant who has not been served with
process inside the state only if the defendant has
sufficient ‘minimum contacts’ with the state so that the
exercise of jurisdiction is reasonable and comports with
‘“fair play and substantial justice.”’ (Internat. Shoe Co.
v. Washington (1945) 326 U.S. 310, 316-317 [90 L.Ed.
95, 102-103]; Vons Companies, at p. 444.)
“A nonresident defendant whose activities within
the state are substantial, continuous, and systematic is
subject to ‘general jurisdiction’ in the state, meaning
jurisdiction on any cause of action. [Citations.] Absent

App. 51
such pervasive activities, a [nonresident] defendant is
subject to ‘specific jurisdiction’ only if (1) the defendant
purposefully availed itself of the benefits of conducting
activities in the forum state . . . [citations]; (2) the
dispute arises out of or has a substantial connection
with the defendant’s contacts with the state [citations];
and (3) the exercise of jurisdiction would be fair and
reasonable [citations].” (Bridgestone at pp. 773-774,
boldface added to factor numbers [citing for the threefactor test, Burger King Corp. v. Rudzewicz (1985) 471
U.S. 462, 472, 475-478 [85 L.Ed.2d 528, 542-545]
(Burger King) & Vons Companies, Inc. v. Seabest Foods,
Inc., supra, 14 Cal.4th at pp. 447-453 (Vons
Companies)].)
“Purposeful availment” (factor No. (1) above) is
shown if the nonresident defendant has “purposefully
directed” its activities at forum residents, “purposefully
derived benefit” from forum activities, or “purposely
availed” itself of the privilege of conducting activities
within the forum state, thus invoking the benefits and
protections of the state’s laws. (Vons Companies, supra,
14 Cal.4th at p. 446, citing Burger King, supra, 471
U.S. at pp. 472-473, 475 [85 L.Ed.2d at pp. 541-542].)
The United States Supreme Court has explained
that placing goods in the stream of commerce with the
expectation that they will be purchased by consumers
in the forum state indicates an intention to serve that
market and constitutes purposeful availment, as long
as the conduct creates a “substantial connection” with
the forum state—for example, if the income earned by
a manufacturer or distributor from the sale or use of its
goods in the forum state is “substantial.” (Bridgestone,

App. 52
supra, 99 Cal.App.4th at pp. 774-775, 777; see id. at p.
776, citing Secrest Machine Corp. v. Superior Court
(1983) 33 Cal.3d 664, 670-671 (Secrest) & World-Wide
Volkswagen Corp. v. Woodson (1980) 444 U.S. 286, 297298 [62 L.Ed.2d 490, 501-502] (World-Wide); see also
Asahi Metal Industry Co. v. Superior Court (1987) 480
U.S. 102, 112, 116-117, 122 [94 L.Ed.2d 92, 104-105,
107-108, 110-111] (Asahi) (plur. opn. of O’Connor, J.;
separate opns. of Brennan, J., & Stevens, J., conc. in
part & conc. in the judg.).)
Purposeful availment does not arise where a
nonresident manufacturer or distributor merely
foresees that its product will enter the forum state. But
purposeful availment is shown where the sale or
distribution of a product “‘arises from the efforts of the
manufacturer or distributor to serve, directly or
indirectly, the [forum state’s] market for its product
. . . .’” (Secrest, supra, 33 Cal.3d at p. 670, italics added,
quoting World-Wide, supra, 444 U.S. at p. 297 [62
L.Ed.2d at p. 501]; see also Bridgestone, supra, 99
Cal.App.4th at p. 776.)
The California Supreme Court has equated
“purposeful availment” with engaging in economic
activity in California “‘as a matter of commercial
actuality’”—i.e., as a matter of “economic reality.”
(Buckeye Boiler Co. v. Superior Court (1969) 71 Cal.2d
893, 901-902, 903 (Buckeye Boiler).)
A plaintiff opposing a defendant’s motion to quash
service has the burden of establishing factor Nos.
(1) (the defendant’s purposeful availment) and
(2) (lawsuit relates to the defendant’s contacts with
state). (Bridgestone, supra, 99 Cal.App.4th at p. 774.)

App. 53
If the plaintiff does so, the burden then shifts to the
defendant to show factor No. (3), that the exercise of
jurisdiction would be unreasonable. (Ibid.; Burger King,
supra, 471 U.S. at p. 476 [85 L.Ed.2d at p. 543].)
If the material facts are undisputed, as here, we
independently review the determination of personal
jurisdiction. (Vons Companies, supra, 14 Cal.4th at p.
449; Bridgestone, supra, 99 Cal.App.4th at p. 774.)
II. The Facts
The undisputed material facts are as follows.
NWS is a tribal-chartered corporation
headquartered on an Indian reservation in New York.
The president and sole owner of NWS is Arthur
Montour, a member of the Seneca Nation of Indians.
NWS (1) imports cigarettes from Grand River, a tribalowned Canadian cigarette manufacturer; (2) stores the
cigarettes at three locations in the United States
(including the Free Trade Zone in Las Vegas, Nevada);
and (3) then sells the cigarettes to tribal entities in the
United States.
In California, NWS sells the Grand River cigarettes
primarily to Big Sandy Rancheria (Big Sandy), an
Indian tribe with 431 members located on a reservation
about 40 miles northeast of Fresno. A sales transaction
occurs when Big Sandy places an order with NWS.
NWS then releases the cigarettes from storage and
arranges for their transport either to Big Sandy or to
other Indian retailers (as apparently directed by Big
Sandy) in California. Big Sandy and the other Indian
retailers then sell the cigarettes to the general public

App. 54
in California. The cigarettes are stamped “‘For
Reservation Sales Only.’”
Using this system since late 2003, NWS has
delivered over 325 million cigarettes, worth nearly $12
million, to California. In 2007 alone, NWS shipped and
sold approximately 80 million cigarettes (4 million
standard packs) to the 431-member Big Sandy.
The present lawsuit had its genesis in the 1998
litigation settlement agreement that was reached
between several states (including California) and major
American tobacco manufacturers.
In November 1998, California and 45 other states
entered into a Master Settlement Agreement (the MSA
or Master Settlement Agreement) with the major
American tobacco manufacturers. In exchange for a
liability release from the states for smoking-related
public healthcare costs, the settling manufacturers
agreed to limit their marketing and to pay the settling
states billions of dollars in perpetuity.
To protect the efficacy of the MSA, which applies
only to tobacco manufacturers, California enacted a
statute in 2003 (the Directory law) (Stats. 2003, ch.
890, § 7), which, in effect, allegedly prohibits any
person from selling, distributing, transporting,
importing, or causing to be imported, cigarettes that do
not comply with the MSA’s requirements, and that the
person “knows or should know” will be sold, offered, or
possessed for sale in California. (Rev. & Tax. Code,
§ 30165.1, subds. (e), (b), (c); see State ex rel.
Edmondson v. Native Wholesale Supply (Ok. 2010) 237
P.3d 199, 203-204 (Edmondson).)

App. 55
The State sued NWS, principally alleging that NWS
violated the Directory law as well as state law on
cigarette fire safety. (Health & Saf. Code, § 14950 et
seq.)
III. Applying the Law to the Facts
A. Factor No. (1)—Purposeful
Availment/Minimum Contacts
The State alleges without dispute that, since the
end of 2003, NWS has shipped and sold over 325
million cigarettes to Big Sandy and, as apparently
directed by Big Sandy, to other Indian retailers in
California, reaping millions of dollars in the process. In
2007 alone, NWS shipped and sold approximately 80
million cigarettes (i.e., 4 million standard cigarette
packs) to Big Sandy. Again, Big Sandy has just 431
members; in other words, even if nearly every member
of Big Sandy smoked two packs every day that would
still total only about 280,000 packs a year. These
cigarettes, in turn, are sold to the general public in
California.
As we have seen, “purposeful availment”—which is
the shorthand standard for the “minimum contacts”
that a nonresident defendant must have with a forum
state for the forum to assert personal jurisdiction
consistent with due process—is shown if the
nonresident defendant has “purposefully derived
benefit” from forum activities. (Vons Companies, supra,
14 Cal.4th at p. 446.) Placing goods in the stream of
commerce with the expectation that they eventually
will be purchased by consumers in the forum state
indicates an intention to serve that market and

App. 56
constitutes purposeful availment, as long as the
conduct creates a “substantial connection” with the
forum state; for example, if the income earned by a
manufacturer or distributor from the sale or use of its
goods in the forum state is “substantial.” (Bridgestone,
supra, 99 Cal.App.4th at pp. 774-775, 777; see also
Bridgestone, at p. 776, citing Burger King, supra, 471
U.S. at pp. 473, 475 [85 L.Ed.2d at pp. 541, 542] &
World-Wide, supra, 444 U.S. at pp. 297-298 [62 L.Ed.2d
at pp. 501-502]; Asahi, supra, 480 U.S. at pp. 112, 116117, 122 [94 L.Ed.2d at pp. 104-105, 107-108, 110-111]
(plur. opn. of O’Connor, J.; separate opns. of Brennan,
J., & Stevens, J., conc. in part & conc. in the judg.);
Secrest, supra, 33 Cal.3d at p. 670.)
As a matter of “commercial actuality,”—i.e., as a
matter of “economic reality” (Buckeye Boiler, supra, 71
Cal.2d at pp. 901-903), NWS’s distribution into
California of hundreds of millions of profitable
cigarettes over the past few years, via a small Indian
tribal network in which the cigarettes are eventually
sold to the general public, meets the “minimum
contacts” legal standard of “purposeful availment”:
NWS has “purposefully derived benefit” from California
activities through a “substantial” stream of commerce.
In a recent decision, the Supreme Court of
Oklahoma found similarly as to NWS involving a
nearly identical distributive process, reasoning:
“The State alleges [without real dispute] that over
a fifteen-month period more than one hundred million
cigarettes worth more than eight million dollars were
sold into the Oklahoma market through this
process. . . . [¶] . . . [¶]

App. 57
“ . . . [W]e are looking here at a distributor [i.e.,
NWS] of a finished product—cigarettes—who causes
the product to be delivered to [a] [tribal] entity in this
state in such quantities that its ultimate destination
can only be the general public in this state. While the
[tribal] entity with which Native Wholesale Supply
[(NWS)] directly deals may operate on tribal land, that
tribal land is not located in some parallel universe. It
is geographically within the State of Oklahoma. Both
entities are engaged in an enterprise whose purpose is
to serve the Oklahoma market for cigarettes.
“This is not a case where [NWS] is merely aware
that its product might be swept into this State and sold
to Oklahoma consumers. The sheer volume of
cigarettes sold by [NWS] to [tribal] wholesalers in this
State shows the Company to be part of a distribution
channel for Seneca [Grand River] cigarettes that
intentionally brings that product into the Oklahoma
marketplace. [NWS] is not a passive bystander in this
process. It reaps a hefty financial reward for delivering
its products into the stream of commerce that brings it
into Oklahoma. To claim, as [NWS] does, that it does
not know, expect, or intend that the cigarettes it sells
to [the tribal entity] are intended for distribution and
resale in Oklahoma is simply disingenuous.
“ . . . We hence hold that the minimum contacts
segment of due process analysis is satisfied.”

App. 58
(Edmondson, supra, 237 P.3d at pp. 208-209, fn.
[citation] omitted.)2
As evident from our extensive quoting of the
Edmondson decision, we find “Oklahoma is OK” on this
point. Such persuasion was not available to the trial
court when it granted NWS’s motion to quash. In line
with Edmondson, we conclude that NWS has minimum
contacts with California sufficient for the State to
assert personal jurisdiction over the company
consistent with due process.
The presence of minimum contacts, however, does
not end the due process inquiry. We must still consider
factor Nos. (2) and (3), to which we turn now.
(Bridgestone, supra, 99 Cal.App.4th at pp. 773-774.)
B. Factor No. (2)—Lawsuit Arises Out of
Defendant’s Contacts with the State
This factor is readily met here. In this lawsuit, the
State alleges that NWS is violating California’s
cigarette distribution and fire safety laws. NWS’s
cigarette distribution in California constitutes NWS’s
contacts with California. Obviously, then, this lawsuit
“arises out of” NWS’s contacts with California.
(Bridgestone, supra, 99 Cal.App.4th at p. 774.)

2

We recognize that Oklahoma’s population is about a tenth of
California’s, but this does not lessen the persuasive punch of this
reasoning with regard to NWS’s activities in California.

App. 59
C. Factor No. (3)—Exercising Personal
Jurisdiction Is Fair and Reasonable
This factor poses little hindrance to reversal as well.
“[I]n evaluating the reasonableness of personal
jurisdiction, a court must consider (1) the burden on
the foreign defendant of defending an action in the
forum state; (2) the forum state’s interest in
adjudicating the dispute; (3) the plaintiff’s interest in
obtaining relief; (4) judicial economy; and (5) the states’
shared interest ‘“in furthering fundamental
substantive social policies.”’” (Bridgestone, supra, 99
Cal.App.4th at p. 778, citing Asahi, supra, 480 U.S. at
p. 113 [94 L.Ed.2d at p. 105] & World-Wide, supra, 444
U.S. at p. 292 [62 L.Ed.2d at p. 498].)
NWS can hardly claim a heavy burden in having to
defend this action in California. After all, NWS stores
its highly profitable cigarettes just next door in
Nevada.
The forum state’s interest and the plaintiff’s
interest merge here, creating a potent combination. As
Edmondson recognized, the integrity of the Master
Settlement Agreement depends on the ability of the
State to enforce its terms. (See Edmondson, supra, 237
P.3d at p. 209.)
That leaves judicial economy and the states’ shared
interest in social policy. As the court in Edmondson
aptly put it once again, “[t]he courts of this State and
only the courts of this State [(here, California)] offer
the most efficient and rational forum for the resolution
of a controversy over the meaning and effect of State
statutes governing the allocation of the financial and

App. 60
health-care costs associated with smoking between the
public and private sectors.” (Edmondson, supra, 237
P.3d at p. 209.)
We conclude the trial court erred in granting NWS’s
motion to quash service. The State has personal
jurisdiction over NWS regarding this lawsuit.3

3

In light of our resolution, it is unnecessary to address the State’s
two other contentions on appeal; namely, that the trial court
abused its discretion (1) in failing to sanction NWS for discovery
violations, and (2) in excluding certain evidence. Both contentions
involve the issue of personal jurisdiction.
Also, we express no views on the Indian commerce clause, the
interstate commerce clause, federal law preemption, or Indian selfgovernment—all of which are discussed briefly on appeal and
involve the issue of whether the State has authority to regulate
NWS’s cigarette sales and distribution. These legal principles and
this issue may implicate the merits of this lawsuit and/or subject
matter jurisdiction; again, we express no views on these matters.
(See, e.g., Edmondson, supra, 237 P.3d at pp. 209-217 [discussing
Indian commerce clause].) The parties did not adequately argue
below, and have not adequately briefed here, any of these issues.
This is understandable because the issue of the State’s personal
jurisdiction over NWS in this lawsuit was the only issue actually
before the trial court.
Finally, we deny the State’s request for judicial notice in
support of its reply brief (which goes to evidentiary issues
involving personal jurisdiction), as well as NWS’s related motion
to strike portions of the State’s reply brief. We also deny NWS’s
request for judicial notice in support of its respondent’s brief
(which cites to pending superior court orders in other cases, as well
as to treatises regarding the regulation of Indian commerce).

App. 61
DISPOSITION
The order quashing service on NWS is reversed. The
matter is remanded to the trial court for further
proceedings. The State is awarded its costs on appeal.
(Cal. Rules of Court, rule 8.278(a)(1), (2).)
(CERTIFIED FOR PUBLICATION)
BUTZ
We concur:
RAYE

, P. J.

ROBIE

, J.

, J.

App. 62

APPENDIX D
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SACRAMENTO
GORDON D SCHABER COURTHOUSE
MINUTE ORDER
Date: 09/25/2009

Time: 02:25:14 PM

Dept: 54

Judicial Officer Presiding: Judge Shelleyanne W L
Chang
Clerk: E. Higginbotham
Bailiff/Court Attendant: None
ERM: None
Case Init. Date: 06/30/2008
Case No: 34-2008-00014593-CU-CL-GDS
Case Title: People of the State of California ex real
Edmund G Brown Jr Attorney General vs. Native
Wholesale Supply
Case Category: Civil - Unlimited
Event Type: Motion to Quash Service of Summons Civil Law and Motion
Causal Document & Date Filed:
Appearances:

App. 63
Nature of Proceeding: Motion to Quash Service of
Summons (Taken Under Submission 8/24/2009)
TENTATIVE RULING
Defendant Native Wholesale Supply (“NWS”)’s motion
to quash is granted for the reasons set forth below.
The complaint alleges that NWS has violated Rev. &
Tax. Code section 30165.1 by selling to California
businesses brands of cigarettes that are not listed in
the Attorney General’s directory of manufacturers who
have complied with this state’s financial responsibility
laws. Such sales also allegedly violate Health and
Safety Code section 14950 (establishing ignitionpropensity standards), 15 USC section 375 et. seq
(shipping cigarettes in interstate commerce to persons
or entities in California that are not licensed as
cigarette distributors by the California Board of
Equalization) and Bus. & Prof. Code section 17200
(unfair competition).
NWS contends that California does not have personal
jurisdiction over it because it has no minimum contacts
with the State of California, as it is an out-of-state
corporation that sells and ships cigarettes only to
Native American tribes and Native American-owned
entities located on the land of recognized Indian tribes.
The following facts are undisputed. NWS is chartered
by Sac and Fox Nation, a federally recognized sovereign
Native American nation, and is wholly owned by
Arthur Montour, a member of the Seneca Nation of
Indians, a federally recognized sovereign Native
American nation. Its business operations are

App. 64
maintained on the Seneca Cattaraugus Indian
Territory which is physically situated in New York.
NWS does not have an office, personnel, mailing
address, bank accounts, sales agents, telephone, real
estate or vehicles in California. NWS is an out-of-state
corporation that has no office or other presence in this
State. Montour decl.
The record before the Court establishes that the only
entity in this state to which NWS has directly sold
cigarettes is Big Sandy Rancheria, a recognized Indian
tribe. Big Sandy, in turn, has sold cigarettes purchased
from NWS to other Indian and non-Indian persons and
entities in California. Some of NWS sales to Big Sandy
were shipped directly to other entities in California.
Plaintiff concedes that the State has no general
jurisdiction over defendant. Plaintiff contends,
however, that this court has specific jurisdiction over
NWS. Specific jurisdiction arises when a defendant has
purposefully availed itself of the privilege of conducting
activities in California; the claim arises out of
defendant’s California-related activity; and the exercise
of jurisdiction would be fair and reasonable. F.
Hoffman-LaRoche, Ltd. v. Superior Court (2005) 130
Cal.App.4th 782, 796. Plaintiff asserts that NWS has
purposefully availed itself of the privilege of conducting
activities in California by: 1) its direct sales to Big
Sandy Rancheria, and 2) its indirect sales to entities
and persons “downstream” from Big Sandy. The Court
examines each of these contentions in turn.
Whether minimum contacts are established by sales to
Big Sandy

App. 65
Plaintiff has cited no authorities, and the Court is
aware of none, holding that sales by an out-of-state
corporation to an Indian tribe on a reservation located
in this state constitute minimum contacts with this
state that will support personal jurisdiction over the
out-of-state corporation. Indeed, the Court has found no
California authorities applying a minimum contacts
analysis where any activities on an Indian reservation
were involved.
Authorities in other jurisdictions applying a minimum
contacts analysis involving Indian reservations have
concluded that activities taking place solely on Indian
lands do not constitute contacts with the forum state.
In Flammond v. Flammond (Mont. 1980) 621 P.2d 471,
the Court held that Montana did not have personal
jurisdiction to enforce a California court’s order to pay
child support against a father who was an enrolled
member of the Blackfeet Tribe and lived on the tribe’s
reservation. The Montana court reasoned that there
were no off-reservation acts in Montana sufficient to
vest that state’s courts with personal jurisdiction over
the father. The marriage had taken place in California,
and the mother had returned to California after
separating from the father. The father’s domicile on the
reservation was not an in-state contact that would
support jurisdiction.
In Martinez v. Superior Court (Ariz.App.1987) 731 P.2d
1244, 1246, a dissolution action by a non-Indian wife
against a reservation Indian husband, the court
applied the general rule that state courts do not have
jurisdiction over an Indian living on an Indian
reservation absent sufficient minimum contacts by the

App. 66
Indian within the state away from the reservation. As
the marital domicile was on the reservation, the
children were conceived on the reservation and the
separation occurred on the reservation, the court
concluded that it had no jurisdiction. On similar facts,
the court in Byzewski v. Byzewski (N.D. 1988) 429
N.W.2d 393, 397 came to the same conclusion.
Out-of-state authorities are not, of course, controlling.
Further, these cases involve domestic relationships,
while this case involves commercial activity. However,
to the extent that plaintiff asserts that NWS’ sales to
Big Sandy constitute minimum contacts with this state
simply because Big Sandy is physically located in this
state, the Court rejects that proposition. The Court is
persuaded by the cases discussed above that onreservation conduct is insufficient to establish
minimum contacts with a forum state absent offreservation activities within the forum state.
Plaintiff further contends that NWS’ sales to Big Sandy
constitute minimum contacts with this state because
state law applies to reservations located in this state.
The issue of the application of state law to Indian
reservations is not as simple as the broad generalities
relied upon by plaintiff, e.g. “reservations are part of
the state within which they lie and state laws, civil and
criminal, have same force within reservation as
elsewhere except for restricted application to Indian
wards. Surplus Trading Co. v. Cook (1930) 281 U.S.
647, 650-651. That statement was, in any event, dicta
as the only issue decided by the court was state
taxation of non-Indian owned private property located
on a federal military base. As the U.S. Supreme Court

App. 67
later observed, “That is not to say that States may
exert the same degree of regulatory authority within a
reservation as they do without. To the contrary, the
principle that Indians have the right to make their own
laws and be governed by them requires ‘an
accommodation between the interests of the Tribes and
the Federal Government; on the one hand, and those of
the State, on the other.’” Nevada v. Hicks (2001) 533
U.S. 353, 362, quoting Washington v. Confederated
Tribes of Colville Reservation (1980) 447 U.S. 134, 156.
As the court in San Manuel Indian Bingo and Casino v.
NLRB (D.C.Cir. 2007) 475 F.3d 1306, 1312, concluded,
“[a]n examination of Supreme Court cases shows tribal
sovereignty to be at its strongest when explicitly
established by a treaty ... or when tribal government
acts within the borders of its reservation, in a matter
of concern only to members of the tribe[.] [citations
omitted] Conversely, when a tribal government goes
beyond matters of internal self-governance and enters
into off-reservation business transaction with nonIndians, its claim of sovereignty is at its weakest.”
In sum, state’s interests are generally highest when the
individual Indian or Indian tribe engages in offreservation conduct within the forum state. E.g.,
Nevada v. Hicks, supra (state officers executing process
related to the violation, off reservation, of state laws);
Organized Village of Kake v. Egan (1962) 369 U.S. 60
(state regulation of fish traps operated in nonreservation waters); Mescalero Apache Tribe v. Jones
(1973) 411 U.S. 145 (state tax on gross receipts of ski
resort operated on land outside the tribe’s reservation).

App. 68
The state’s interests are weakest where the conduct of
the individual Indian or Indian tribe is on-reservation
conduct relating to tribal sovereignty. “When onreservation conduct involving only Indians is at issue,
state law is generally inapplicable, for the State’s
regulatory interest is likely to be minimal and the
federal interest in encouraging tribal self-government
is at its strongest.” White Mountain Apache Tribe v.
Bracker (1980) 448 U.S. 136, 144.
Plaintiff contends that, where state interests outside
the reservation are implicated, a state may regulate
the activities of even tribe members on tribal land,
such as sales of cigarettes on reservation land by tribal
entities to nonmembers from off the reservation.
Nevada v. Hicks, supra, 533 U.S. at 362, citing
Washington v. Federated Tribes of Colville Reservation
(1980) 447 U.S. 134, 151. Plaintiff urges the Court to
find that NWS’ sales to Big Sandy implicate
unidentified state interests outside the reservation
because Big Sandy, in turn, sells those cigarettes to
California entities and consumers off the reservation.
The Court initially notes that the power of the state to
regulate on-reservation conduct implicating offreservation state interests cannot be assumed in every
situation. In Lawrence v. Barona Valley Ranch Resort
& Casino (2007) 153 Cal.App.4th 1364, 1368-1370, the
court held it had no subject matter jurisdiction to apply
state tort laws against Indian casino operated on
reservation. In Ameriloan v. Superior Court (2008) 169
Cal.App.4th 81, 84, the court held that tribal immunity
extends to a tribe’s for-profit business entities when the
entity is operating on behalf of the tribe. In Middletown

App. 69
Rancheria v. Workers’ Comp. Appeals Bd. (1998) 60
Cal.App.4th 1340, the court concluded that Public Law
280 does not confer on California the power to enforce
its full panoply of general civil regulatory jurisdiction
over Native American Indian tribes, and therefore the
California Workers Compensation Appeals Board had
no jurisdiction over injuries sustained by an employee
of an Indian casino operating on reservation land.
Recognition by the courts that states have the power to
impose taxes on the on-reservation sales of cigarettes
to non-Indians is not authority that the states may
regulate on-reservation sales in general, or NWS’ sales
to Big Sandy in particular. As the U.S. Supreme Court
explained in Federated Tribes, supra, state taxing
schemes on cigarettes and other goods sold to nonIndians have been upheld because the legal incidence
of the tax fell on the non-Indian purchaser. The effect
was simply to neutralize the competitive advantage
gained by the tribes over other retailers by exploiting
the willingness of non-Indian purchasers to “flout”
their legal obligation to pay the taxes. 447 U.S. at 151.
States are categorically barred from placing a tax’s
legal incidence on a tribe or on tribal members for sales
made inside Indian country. Wagnon v. Prarie Band
Potawatomi Nation (2005) 546 U.S. 95, 106 (upholding
sales tax imposed on in-state distributors,
manufacturers or importers of fuel sold to Indian tribe
for sale on tribal land because the legal incidence of the
tax did not fall on the tribe).
Here, the legal incidence of the statutes at issue in this
case would not fall on non-Indian consumers. These
statutes do not impose a tax that can be passed along

App. 70
to the non-Indian consumer. Rev. & Tax. Code section
30165.1 imposes an absolute ban on the sales of certain
brands of cigarettes that are not listed on the Attorney
General’s directory: “No person shall sell, offer, or
possess for sale in this state, or import for personal
consumption in this state, cigarettes of a tobacco
product manufacturer not included in the directory.”
Rev. & Tax. Code section 30165.1(e)(2). The legal
incidence of this ban, if applied here, would fall directly
on Big Sandy as an importer as well as NWS as a seller
of unregistered cigarettes.
Of even more significance, NWS’ sales to Big Sandy
constitute not only commerce between Indian-owned
entities but also interstate commerce. The authorities
upholding the power of a state to impose taxes on sales
of goods have concerned only sales within that state.
Plaintiff has not cited, and this Court is not aware of
any authority permitting a state to regulate interstate
commerce between Indian tribes or tribal entities. Such
activities are more properly subject to Congressional
regulation, which has plenary power to regulate Indian
commercial activities. Agua Caliente Band of Cahuilla
Indians v. Superior Court (2006) 40 Cal.4th 239, 249.
As the Court finds that the state cannot regulate the
interstate commerce between NWS and Big Sandy, it
rejects defendant’s contention that NWS’ sales to Big
Sandy constitute minimum contacts with this state.
Stream of commerce theory
Plaintiff alternatively contends that purposeful
availment can be shown by placing goods in the stream
of commerce with the expectation that they will be

App. 71
purchased by consumers in the forum state.
Bridgestone Corp. v. Superior Court (2002) 99
Cal.App.4th 767, 777. Plaintiff contends that courts
regularly find jurisdiction over a foreign defendant
where the defendant’s product arrived through the
stream of commerce in the forum state via an equally
foreign middleman. A. Uberti & C. v. Leonardo (Ariz.
1995) 892 P.2d 1354, 1362-1363 (jurisdiction over
Italian manufacturer whose guns were sold in Arizona
through third party middleman in Massachusetts);
Duple Motor Bodies, Ltd. v. Hollingsworth (9th Cir.
1969) 417 F.2d 231 (sale of product by foreign
manufacturer via middleman in England to buyers in
Hawaii); Barone v. Rich Bros. Interstate Display
Fireworks Co. (9th Cir. 1994) 25 F.3d 610, 613-614
(Japanese corporation subject to suit in Nebraska
where middleman was South Dakota distributor).
Defendant contends that shipments of cigarettes
purchased by Big Sandy to other entities is at the
direction of Big Sandy, and that Big Sandy’s re-sales of
cigarettes to other entities are the unilateral activities
of a third party.
Plaintiff bears the initial burden to demonstrate facts
that support the exercise of jurisdiction. Bridgestone
Corp. v. Superior Court, supra, 99 Cal.App.4th 767.
Plaintiff has produced the following evidence in
opposition to this motion: declarations of Cook, Allison,
Carlson and Diaz regarding their purchases of Opal
and Seneca cigarettes from Big Sandy Rancheria,
Huber Enterprises Smoke Shop, Native Made Tobacco
Shop, and Black Hawk Tobacco Shop; the declaration
of Gable regarding various records demonstrating the

App. 72
amount of sales and shipments made by defendant to
Big Sandy and to Big Sandy consignees. The Court
notes that the Gable declaration includes as an exhibit
the declaration of Vincent Buehler, a law clerk who
prepared spread sheets based on sales and shipping
documents. Notably, Buehler’s declaration states at
para. 8 that the only purchaser identified on any of the
234 shipments made by defendant from December 203
to mid-2008 was Big Sandy Rancheria, although
several shipments designated Huber Enterprises and
Native Buy as consignees. Gable’s declaration states
that her review of all records available regarding
defendant’s sales and shipments to entities in
California show sales only to Big Sandy, with 40
shipments to Huber Enterprises, 27 shipments to
Native Made Tobacco, 6 shipments to Native Buy and
one shipment to Black Hawk Tobacco.
Plaintiff’s contention that this evidence shows that
defendant directed the sales to Big Sandy and
downstream to other California entities is not
persuasive. The only inference the Court draws from
the evidence of Big Sandy’s downstream sales is that
Big Sandy acted as a seller and distributor of cigarettes
to other entities in California, Indian and non-Indian,
as a result of the tribe’s own independent economic
decision. There is no evidence supporting an inference
that NWS exercised any control over Big Sandy’s
downstream sales. The record establishes only that
NWS filled orders placed by Big Sandy and shipped
those orders to Big Sandy or other entities designated
by Big Sandy. NWS did not place its own name on the
cigarettes as the Massachusetts distributor did in
Uberti, supra, 892 P.2d at 1360-1361. Unlike the

App. 73
manufacturer in Duple, supra, who made special
modifications to its coach for the Hawaii market, NWS
did not modify the cigarettes it sold to Big Sandy in any
way so as to serve the California market. Rather, the
evidence that each package of cigarettes sold by NWS
was stamped “for reservation sales only” indicates
NWS intended to sell its cigarettes only to Indian
reservations and not the wider California market.
While it may have been foreseeable to NWS that
cigarettes sold to Big Sandy would be resold to others,
foreseeability alone is insufficient to support specific
jurisdiction. As You Sow v. Crawford Laboratories, Inc.
(1996) 50 Cal.App.4th 1859, 1868-1869 (multi-million
dollar sales to GSA’s California depot over a period of
six years insufficient to apply stream of commerce
theory where seller had no control over final
destination of its products). “Foreseeability that a
product will enter California without having some
control over its ultimate destination does not satisfy
the due process clause of the United States
Constitution.”
Finally, the Court must also find that the exercise of
jurisdiction in this case would be fair and reasonable.
Bridgestone Corp., supra, 99 Cal.App.4th at 774. The
Court initially observes that this is not the typical
personal injury case in which a manufacturer places a
defective produce in the stream of commerce, and
jurisdiction will allow a California consumer to seek
redress from injuries caused by that product. This is
also not a case where the sales of unregistered
cigarettes is a criminal violation, and thus the ban on

App. 74
such sales would be enforceable against Indian tribes
under Public Law 280.
This case involves state laws which allow some
cigarette manufacturers and not others to sell their
cigarettes in California. The primary burden of these
laws falls on the manufacturer, i.e. to meet the
financial responsibility requirements and ignitionpropensity standards. There is no evidence here that
NWS knew or should have known that Grand River,
the cigarette manufacturer and another Indian-owned
entity operating in Canada, was subject to and had not
complied with these conditions when NWS sold the
cigarettes to Big Sandy. As the state’s general civil
regulatory power does not extend to Indian tribes,
there is uncertainty at the other end of the distribution
as to whether the state’s financial responsibility and
other laws at issue in this case could be enforced
against Big Sandy. It would be unfair to place the
burden on an out-of-state distributor to determine,
whenever it sells products to an Indian tribe located in
California, what state laws are enforceable against the
tribe with respect to any resales of those products. In
the Court’s view, that burden more fairly falls on the
tribe importing the products for resale. The Court finds
that, under these circumstances, it would not be
reasonable or fair to exercise jurisdiction over NWS.
Transportation of cigarettes over state highways
Plaintiff contends that defendant’s shipment of the
cigarettes by truck over California roadways is
sufficient to find jurisdictional contacts. However, there
is no evidence in this case to on which the Court may
find that defendant has directed the shipments on

App. 75
California roadways. Rather, the evidence shows only
that defendant has sold cigarettes to a California
Indian tribe, and at that tribe’s direction, has shipped
the cigarettes primarily to the tribe itself and
occasionally to consignees. In these circumstances,
mere shipment of goods over California roadways is
insufficient to establish minimum contacts. Lakeside
Bridge and Steel Co. v. Mountain State Construction
Co., Inc. (7th Cir. 1979) 597 F.2d 596, 604 n.14 (out-ofstate defendant’s shipment of goods through state to
another forum did not constitute minimum contacts not
established solely by fact that goods were transited
through a state).
The minute order is effective immediately. No formal
order pursuant to CRC Rule 3.1312 or further notice is
required.
COURT RULING
The matter was argued and submitted. The Court took
this matter under submission.
SUBMITTED MATTER RULING
Having taken this matter under submission, the Court
now rules as follows. The tentative ruling is affirmed
with the following comments and evidentiary rulings.
At the hearing, plaintiff contended that the law
recognizes no distinction between shipments of
cigarettes to Big Sandy and shipments of cigarettes to
a WalMart store located in the State of California. The
argument is fundamentally flawed as it ignores the fact
that Big Sandy is a sovereign Indian tribe. Activities
involving a sovereign physically located in California

App. 76
are not treated in the same manner as activities
involving other entities located in California. “When
on-reservation conduct involving only Indians is at
issue, state law is generally inapplicable, for the State’s
regulatory interest is likely to be minimal and the
federal interest in encouraging tribal self-government
is at its strongest.” Nevada v. Hicks (2001) 533 U.S.
353, 361-362. Absent Congressional authorization or a
tribe’s or consent, the courts do not have subject matter
jurisdiction over a tribe. Lawrence v. Barona Valley
Ranch Resort & Casino (2007) 153 Cal.App.4th 1364,
1368-1370.
Plaintiff is correct that this is not a lawsuit against an
Indian tribe. However, plaintiff too narrowly construes
the subject matter of this action as merely sales by an
out-of-state corporation to a California entity, as
though the sales were a unilateral act of NWS. No sales
would be made by NWS unless Big Sandy purchased
the cigarettes. Thus, the activity which plaintiff
contends is unlawful is not just the act of NWS in
shipping cigarettes into California; it is a business
transaction between an out-of-state corporation and an
Indian entity located in California. This kind of
business transaction is not only subject to limitations
on a state’s power to regulate interstate commerce, it
is also subject to limitations imposed by the Indian
Commerce clause. None of the authorities relied upon
by plaintiff discuss minimum contacts where the
activity involves interstate commerce and/or the Indian
Commerce clause.
Defendant’s request for rulings on its objections to
plaintiff’s evidence is granted as follows.

App. 77
Defendant’s objections to the declarations of Gerald K.
Carlson (4/15/09 and 5/18/09), Chris Cook, Albert
Allison (4/15/09 and 5/15/09), and Andrew Diaz are
sustained on the ground of relevance. These
declarations are not relevant in the absence of a
showing that defendant exercised control over Big
Sandy’s sales to downstream customers. Having
sustained the objections on the grounds of relevance,
the court need not rule on defendants’ other objections
(e.g. hearsay, etc.).
Defendant’s objections to the declaration of Monica
Gable are overruled.
Defendant’s objections to the lodging of the transcript
of the Jo Anne Tornberg deposition are overruled.
Declaration of Mailing
I hereby certify that I am not a party to the within
action and that I deposited a copy of this document in
sealed envelopes with first class postage prepaid,
addressed to each party or the attorney of record in the
U.S. Mail at 720 Ninth Street, Sacramento, California.
Dated: September 28, 2009
E. Higginbotham, Deputy Clerk /s/ E. Higginbotham
Michelle Hickson
Dennis Eckard
P.O. Box 944255
Sacramento, CA 94244
John Peebles
Darcie Houck
Robert Rhoades

App. 78
Fredericks Peebles & Morgan
1001 Second Street
Sacramento, CA 95814

App. 79

APPENDIX E
KAMALA D. HARRIS
Attorney General of California
KAREN LEAF
Senior Assistant Attorney General
MICHAEL M. EDSON, SBN 177858
MICHELLE HICKERSON, SBN 199748
Deputy Attorneys General
600 West Broadway, Suite 1800
San Diego, CA 92101
Telephone: (619) 645-2461
Fax: (619) 738-9307
Email: Michelle.Hickerson@doj.ca.gov
Attorneys for Plaintiff
People of the State of California
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF SACRAMENTO
Case No. 34-2008-00014593 CU-CL-GDS
[Filed December 28, 2016]
___________________________________
PEOPLE OF THE STATE OF
)
CALIFORNIA ex rel. Kamala D.
)
Harris, Attorney General,
)
)
Plaintiff,
)
)
v.
)

App. 80
NATIVE WHOLESALE SUPPLY
COMPANY, a corporation, and
DOES 1 through 20,

)
)
)
)
Defendant. )
___________________________________ )
ORDER GRANTING PEOPLE’S MOTION FOR
SUMMARY JUDGMENT OR, ALTERNATIVELY,
FOR SUMMARY ADJUDICATION AND
REQUEST FOR CIVIL PENALTIES
AND INJUNCTION
Dept:
Judge:
Trial Date:
Action Filed:

53
Hon. David I. Brown
Feb. 21, 2017
June 30, 2008

Plaintiff, the People of the State of California’s
motion for motion for summary judgment, or in the
alternative, summary adjudication, is ruled upon as
follows.
In this action, the People allege numerous causes of
action against Native Wholesale Supply Company
(“NWS”) based on its conduct in importing illegal
cigarettes from Canada and selling them in California.
The People assert causes of action for violation of the
Directory Statue (Rev. & Tax. Code, § 30165.1), the
Fire Safety Act (Health & Safety Code, § 14955 et seq.),
and violations of Bus. & Prof. Code, § 17200.
The parties’ requests for judicial notice are granted.
The People’s separate statement includes the
following. The Attorney General’s Tobacco Directory as

App. 81
specified in Health & Safety Code § 30165.1(c) went
live on June 29, 2004. Neither Grand River Enterprises
nor Seneca, Opal and/or Couture brands (GRECigarettes) have ever been listed on the Tobacco
Directory. Big Sandy’s land is “within the exterior
limits of the State of California [including] all territory
within these limits owned by or ceded to the United
States of America.” Each year from 2004 to 2012 NWS
sold GRE-Cigarettes to Big Sandy Rancheria. Between
at least June 30, 2004 and May 25, 2012, NWS sold to
Big Sandy and shipped to California GRE-Cigarettes.
NWS paid carriers to transport GRE-Cigarettes to
California. NWS admits that each year from 2004 to
2012 it arranged for GRE-Cigarettes to be shipped or
transported to California at Big Sandy’s direction.
NWS admits that funds paid by NWS were used for
promotion of GRE-Cigarettes at tobacco retailers in
Indian country in California who were customers of Big
Sandy. NWS used funds for promotion of GRECigarettes at tobacco retailers in Indian country in
California, which promotions were accessible to persons
in California who do not reside in Indian Country if
those persons entered Indian Country. At least 15
NWS employees promoted GRE-Cigarettes in
California. NWS’s promotional activities in California
included product and merchandise give-aways,
personal appearances by NWS personnel at retail
locations where promotional-priced products or
samples would be provided as well as customer loyalty
items. NWS was served with the instant complaint on
July 9, 2008. After that time, NWS continued to sell
and ship GRE-Cigarettes to Big Sandy for another 4
years until at least May 25, 2012.

App. 82
GRE is a Canadian corporation located in
Oshweken, Ontario, Canada. NWS imported GREmade cigarettes from Canada. The Big Sandy
Rancheria Band of Mono Indians is an Indian tribe
that had approximately 434 members in 2005.
NWS admits that no GRE-Cigarette has been
certified by the manufacturer to the State Fire Marshal
as meeting the fire safety requirements of the
California Cigarette Fire Safety and Firefighter
Protection Act, specifically Health & Safety Code
section 14951 et seq., at any time from 2004 to 2012.
The State Fire Marshal’s Office has no record of any
certification submitted to or approved at any time prior
to February 2014 for any brand or style of GRECigarettes. NWS sold no GRE-Cigarettes to anyone in
California after May 25, 2012.
NWS never filed with the Board of Equalization the
statement required by 15 U.S.C. § 376(a) or any
monthly report as specified in 15 U.SC. § 376(b) with
respect to any sale and/or shipment of GRE-Cigarettes
to anyone in California. Big Sandy is not a licensed
cigarette distributor in California. After the cigarettes
NWS purchased were passed through Customs, they
were stored at one of three federally regulated facilities
in New York and Nevada. Cigarettes were shipped to
customers from the storage facilities. The GRECigarettes that NWS sold to Big Sandy were shipped to
persons in California from outside California. NWS’s
headquarters is on the Seneca reservation in New
York.

App. 83
I. FIRST CAUSE OF ACTION (VIOLATION OF THE
D IRECTORY S TATUTE-R EV. & T AX. C ODE
§ 30165.1(E)(2), (E)(3).)
The People’s motion for summary adjudication on
the first cause of action is granted. Rev. & Tax. Code
§ 30165.1, commonly referred to as the Directory
Statute, requires, among other things, that every
cigarette manufacturer whose cigarettes are sold in
California to annually deliver to the Attorney General
a document certifying that the manufacturer is in full
compliance with various provisions of the Directory
Statute and other state laws. Subdivision (e)(2)
provides that no person shall sell, ship, or otherwise
distribute cigarettes or tobacco products that are not
listed in the AG’s directory. (Rev. & Tax. Code,
§ 30165.1(e)(2).) Subdivision (e)(3) prohibits persons
from selling, distributing, acquiring, holding, owning,
possessing, importing, transporting, or causing to be
imported, cigarettes that the person knows or should
know are intended to be distributed in violation of
subdivision (e)(2). (Id., subd. (e)(3).) The People’s
evidence set forth above shows that the GRECigarettes have never been listed on the Tobacco
Directory. (People’s Separate Statement of Undisputed
Material Facts (“UF”) 2.) NWS sold these cigarettes to
Big Sandy in California. NWS shipped many of the
cigarettes to other entities in California at Big Sandy’s
direction and engaged in promotional activities
directed at a California market beyond Big Sandy. (UF
4-7; 8-12, 15.) In addition, as described by the Court of
Appeal in this very case, “[i]n 2007 alone, NWS shipped
and sold approximately 80 million cigarettes (1.4
million standard cigarette packs) to Big Sandy. Again,

App. 84
it bears noting Big Sandy has just 431 members; in
other words, even if nearly every member of Big Sandy
smoked two packs every day that would still total only
about 280,000 packs a year. It equally is clear that
these cigarettes, in turn are sold to the general public
in California.” (People v. Native Wholesale Supply Co.
(2011) 196 Cal.App.4th 357, 363-364 [emphasis in
original].)
The People’s evidence is sufficient to demonstrate
that NWS sold in and shipped or otherwise distributed
into California cigarettes that were not listed on the
Attorney General’s directory in violation of subdivision
(e)(2). The evidence also shows that NWS knew or
should have known that Big Sandy intended to
redistribute the cigarettes in violation of subdivision
(e)(2), which constitutes a violation of subdivision
(e)(3). The People met their burden to shift to NWS the
burden on demonstrating the existence of a triable
issue of material fact. It failed to do so.
In this regard, in its opposition, NWS does not
specifically address the individual causes of action, but
argues that its defenses preclude summary
adjudication/judgment. First, it argues that the
People’s claims are pre-empted under White Mtn.
Apache Tribe v. Bracker (1980) 448 U.S. 136. The Court
rejected this argument in connection with its ruling on
NWS’s motion for summary judgment, also decided
today, which ruling is incorporated herein.
NWS next argues that this Court has no personal
jurisdiction over it. However, this contention has been
extensively litigated in this matter and both this Court
and the Third District Court of Appeal have found that

App. 85
personal jurisdiction exists. (People v. Native Wholesale
Supply Co. (2011) 196 Cal.App.4th 357.)
NWS next argues that enactment and enforcement
of the Directory Statute violates the Equal Protection
Clause of the 14th Amendment and the corresponding
protections under the California Constitution. NWS
argues that where the state legislation singles out
Indian tribes for particular or special treatment, the
legislation is unlawful unless it passes strict scrutiny.
However, the subject Directory Statute does not single
out Indian tribes and is equally applicable to all
citizens of California. Indeed, “[a]bsent express federal
law to the contrary, Indian’s going beyond reservation
boundaries have generally been held subject to nondiscriminatory state law otherwise applicable to all
citizens of the State.” (Mescalero Apache Tribe v. Jones
(1973) 411 U.S. 145, 148-149.) The case law cited by
NWS involves legislation that was not equally
applicable to all citizens. Again, the Directory Statute
is equally applicable to all citizens. (KG Urban Enters.,
LLC v. Patrick (2012) 693 F.3d 1, 19 [statutes
containing differentiation based on tribal preference].)
NWS argues that the Court must examine the
Legislature’s intent in enacting the Directory Act and
that it is currently pursuing discovery on this subject.
But the cases cited by NWS for the proposition that the
Legislature’s intent is relevant deal again with statutes
that contain a classification based on a protected class.
(United States v. Windsor (2013) 133 S. Ct. 2675, 26932694; United States Dep’t of Agriculture v. Moreno
(1973) 413 U.S. 528, 534-537.) Here, NWS alleges that
the subject laws impermissibly discriminate against
Indian tribes, tribal members, tribal cigarette

App. 86
manufacturers and entities that sell or desire to sell
Native-made cigarettes to tribal members or tribes or
both. However, NWS does not allege it is a tribe, tribal
member or native cigarette manufacturer. An equal
protection claim can only be raised by “a member of the
class of persons discriminated against.” (Rubio v.
Superior Court (1979) 24 Cal.3d 93, 103.). Further,
individuals who sell cigarettes to tribes are not a
suspect class. Where a law “neither burdens a
fundamental right nor targets a suspect class, we will
uphold the legislative classification so long as it bears
a rational relation to some legitimate end.” (Romer v.
Evans (1996) 517 U.S. 620, 631.) Under a rational basis
review, a statute alleged to discriminate “must be
upheld against an equal protection challenge if there is
any reasonably conceivable state of facts that could
provide a rational basis for the classification.” (FCC. v.
Beach Communications, Inc. (1993) 508 U.S. 307, 313.)
“[I]t is entirely irrelevant for constitutional purposes
whether the conceived reason for the challenged
[statute] actually motivated the legislature.... In other
words, a legislative choice is not subject to courtroom
fact-finding and may be based on rational speculation
unsupported by evidence or empirical data.” (Id., at p.
315.) A statute “comes [before the Court] bearing a
strong presumption of validity,... and those attacking
its rationality have the burden to negate every
conceivable basis which might support it.” (Id., at pp.
314-315.) The Court of Appeal has already held that
the subject statutes promote public health which is
certainly a rational basis. (Black Hawk, supra, 197
Cal.App.4th at p. 1561.) There is no basis for an equal
protection defense and the argument that the
Legislature’s intent in enacting the Directory Statute

App. 87
creates a triable issue of fact on NWS’s equal protection
affirmative defense is rejected.
NWS argues that it was under no obligation to
comply with the Directory Statute until 2013 when the
Legislature amended the “Escrow Statute” to revise the
definition of “units sold” to specifically include tribal
sales by specifying that “units sold” equaled the
number of cigarettes sold to consumers in California
regardless of whether or not the state excise tax was
collected on the sale. NWS then attempts to cite to the
legislative history behind the Escrow Statute. The
Court rejects this argument which is confusing at best.
Indeed, the language of the Directory Statute is clear
and unambiguous and provides that “[n]o person shall
[sell, ship, etc.] cigarettes of a tobacco product
manufacturer or brand family not included in the
[Attorney General’s Directory].” (Rev. & Tax. Code
§ 30165.1, subd. (e)(2), (3).) The Court would only look
to legislative intent to construe a statute “only when
the statutory language is susceptible of more than one
reasonable interpretation.” (People v. Salazar-Merino
(2001) 89 Cal.App.4th 590, 596 [italics in original].) The
Directory Statute contains no carve out for certain
kinds of persons, manufacturers, etc. and there is no
argument made that the Act is ambiguous or unclear
and thus resort to legislative history regarding the
Escrow Statute, a different statute, is not permissible.
The Court rejects the argument that NWS was not
subject to the Directory Statute between 2004 and
2012.
NWS offers no other argument in support of its
opposition. In addition, while NWS purports to dispute

App. 88
a number of the facts set forth in the People’s separate
statement, none of the facts are truly disputed and/or
to the extent there is any dispute, it is not material.
For example, NWS attempts to dispute almost all of
the People’s material facts with evidence that it sold
cigarettes to Big Sandy, a federally recognized tribe, on
sovereign land, in transactions that were FOB New
York with title and risk of loss transferring to Big
Sandy before the products entered into California.
NWS does not specifically discuss this point in its
opposition, but essentially it is attempting to argue the
same point that it did in its own motion, that is, that
the claims at issue are pre-empted. As already made
clear, they are not. In any event, the Court has
sustained the People’s objections to the evidence on this
point, a single sentence in a declaration from NWS’
“manager,” Erlind Hill. Mr. Hill’s declaration was made
“to the best of [his knowledge and belief.” (Hill Decl.
1:27-28.) Such a declaration is insufficient to establish
the personal knowledge required by section 437c.
(Ahrens v. Superior Court (1988) 197 Cal.App.3d 1134,
1151, fn. 13.) Nor does Mr. Hill indicate that he is an
officer, director, or specify what he manages on NWS’s
behalf to indicate how he would have personal
knowledge about the nature of the transactions. In any
event, as the Court noted in the ruling on NWS’s
motion, it appears that NWS is trying to argue that
sales between tribes are pre-empted. As noted, they are
not. Case law has consistently held “inter-tribal” trade
is not exempt from state regulation. (See, e.g.,
Muscogee (Creek) Nation v. Henry (E.D. Okla. 2010)
867 F.Supp.2d 1197, 1206-1211.)

App. 89
As a result, NWS has failed to raise a triable issue
of material fact with respect to the First Cause of
Action and the motion for summary adjudication is
granted.
II. SECOND CAUSE OF ACTION (FIRE SAFETY ACT
–VIOLATION 01 HEALTH & SAFETY CODE § 14950
ET SEQ.)
The People’s motion for summary adjudication is
granted. The Fire Safety Act provides that “[a] person
shall not sell, offer, or possess for sale in this state
cigarettes not in compliance with the following
requirements: ... (4) A written certification is filed by
the manufacturer with the State Fire Marshal in
accordance with Section 14953.” (Health & Saf. Code,
§ 14951, subd. (a)(4).) The People’s evidence shows that
NWS sold cigarettes to Big Sandy for which no
certification had been filed between July 9, 2008, when
it was served with the complaint in this action, and
May 25, 2012, when it claimed to have stopped selling
the cigarettes. (UF 13, 23.) At no time prior to
February 2014 were any GRE-Cigarettes certified as
being in compliance with Health & Safety Code section
14951, subdivision (a)(4). (UF 3, 4, 20, 21, 22.) The
evidence is sufficient to shift to NWS the burden of
demonstrating the existence of a triable issue of
material fact.
As discussed above, NWS did not present separate
arguments to the separate causes of action and instead
presented the arguments as to all causes of action,
which have been extensively discussed and rejected
above. The Court would note that NWS’ responsive
separate statement attempts to rely upon its seventh

App. 90
affirmative defense in its answer, that it relied in good
faith on the manufacturer’s certification and markings
that the GRE-Cigarettes complied with the
requirements of the Fire Safety Act. Health and Safety
Code section 14955, subdivision (g) provides a defense
to penalties based on such good faith reliance.
However, the People only seek penalties based on
NWS’s violations from July 9, 2008, the date NWS
received service of the complaint in this action. At that
point, NWS was on notice that the cigarettes at issue
were alleged to have violated the Act. NWS presents no
evidence to demonstrate that it continued to rely in
good faith on any certification from any manufacturer.
As a result, NWS has failed to raise a triable issue
of material fact with respect to the Second Cause of
Action and the motion for summary adjudication is
granted.
III.

FOURTH CAUSE OF ACTION (VIOLATION OF BUS.
& PROF. CODE § 17200 ET SEQ.)

The People’s motion for summary adjudication is
granted. Unfair competition includes “any unlawful ...
business act or practice....” (Bus. & Prof. Code,
§ 17200.) “By defining unfair competition [in this
manner], the UCL permits violations of other laws to
be treated as unfair competition that is independently
[from the underlying offense] actionable.” (Kasky v.
Nike, Inc. (2002) 27 Cal.4th 939, 949.) The People’s
evidence, as set forth above, demonstrates that NWS
violated the Directory and Fire Safety Acts. In
addition, 15 USC § 376 requires any person who sells
cigarettes in interstate commerce, whereby such
cigarettes are shipped into a state that taxes their sale

App. 91
or use, to file monthly reports with the state tax
administrator, providing specific information about
each shipment. The evidence shows that NWS,
headquartered in New York, sold and shipped
cigarettes from outside California to Big Sandy in
California, which is not a licensed distributor in
California, thus engaging in interstate commerce. (UF
3, 4, 6, 7, 26-28.) NWS failed to file monthly reports
with the state tax administrator. (UF 25.) The evidence
is sufficient to shift to NWS the burden of
demonstrating the existence of a triable issue of
material fact.
As discussed above, NWS did not present separate
arguments to the separate causes of action and instead
presented the arguments as to all causes of action were
extensively discussed and rejected above. As a result,
NWS has failed to raise a triable issue of material fact
with respect to the Fourth Cause of Action and the
motion for summary adjudication is granted.
In sum, the People’s motion for summary
adjudication is granted as to the first, second, and
fourth causes of action which are the only remaining
causes of action asserted against NWS. Accordingly,
the People’s motion for summary judgment is granted.
IV. PENALTIES AND INJUNCTION
The People seek penalties under both the UCL and
the Fire Safety Act. The People seek a total of
$4,292,500 in civil penalties ($2,002,250 for UCL
violations and $2,290,000 for Fire Safety Act
violations). The People seek an order that they are
entitled to these penalties.

App. 92
At the outset, the civil penalties and injunctive
relief are remedies and not part of any cause of action.
As a result, to the extent there are factual disputes as
to these issues, the Court can still grant summary
judgment (as it did above) and could simply hold an
evidentiary hearing to resolve factual issues related to
remedies. (People v. Superior Court (2015) 234
Cal.App.4th 1360, 1372-1377.) As will be discussed
below, there are no such disputed facts.
The UCL authorizes civil penalties of up to $2,500
for each violation. (Bus. & Prof. Code, § 17206, subd.
(a).) Once a violation is found, the duty to impose a
penalty for each violation is mandatory. (People v. First
Federal Credit Corp. (2002) 104 Cal.App.4th 721, 728.)
“In assessing the amount of the civil penalty [under the
UCL], the court shall consider any one or more of the
relevant circumstances presented by any of the parties,
including, but not limited to, the following: the nature
and seriousness of the misconduct, the number of
violations, the persistence of the misconduct, the length
of time over which the misconduct occurred, the
willfulness of the defendant’s misconduct, the length of
time over which the misconduct occurred, the
willfulness of the defendant’s conduct, and the
defendant’s assets, liabilities, and net worth.” (Bus. &
Prof. Code, § 17206, subd. (b).) The Court may also
consider the revenues received by the defendant from
the unlawful conduct. (People v. Morse (1993) 21
Cal.App.4th 259, 272.) “[P]enalties provided by [the
UCL] are cumulative to each other and to the remedies
or penalties available under all other laws of this
state.” (Bus. & Prof. Code, § 17205.)

App. 93
Here, the evidence shows that NWS funneled more
than one billion contraband cigarettes into California
over an eight year period and more than 2/3 of the sales
in California took place after NWS had been served
with the complaint in this action. (Edson Decl. Exhs. 6
and 13.) Further, even after May 25, 2012, when it
claims to have stopped selling the cigarettes, NWS
spent millions of dollars promoting the GRE-cigarette
sales in California, including paying $3 million towards
a customer appreciation gala in Las Vegas to which it
invited over 500 people, including the chairperson of
Big Sandy and persons affiliated with stores that
sell/distribute GRE-cigarettes in California. (Id., Exh.
17, pp. 366-367, 371-372; 374-376; Exh. 18, pp. 381-382,
386, 386-405; Exh. 19, pp. 409-411, 413-414.) According
to NWS, these were “people we need to be buying our
product or [people] we desire to become customers.”
(Id., Exh. 20, p. 421:14-15.) In addition, when the
Attorney General found that NWS had been storing
cigarettes in Las Vegas at the foreign trade zone
(“FTZ”) and requested that the cigarettes stop being
released for shipment into California, NWS began
concealing from the FTZ the destinations in California
to which the cigarettes would be shipped upon release.
(Id., Exh. 14, pp. 257-261, 274-280; Exh. 4, pp. 31-33.)
Finally, although NWS was in bankruptcy, it has
recently emerged and has admitted that its bankruptcy
plan is feasible such that it has the “ability to ... stay
current with its obligations and to make the proposed
payments to all Allowed Claimants [including
California] over time.” (Id., Exh. 21, pp. 425-426.)
“Debtor will have sufficient cash flow and capital
resources to pay its liabilities as they become due
[including Plan provisions for payment of any

App. 94
California judgment] and to satisfy its capital needs for
the conduct of its business.” (Id., Exh. 22, p. 430, ¶ I.)
In short, the Court finds that NWS’s unlawful
conduct, committed on a large scale over a substantial
period of time, and even after it was served with notice
of the complaint in this action, and its attempts to
continue to promote the unlawful conduct even after
claiming to have stopped the sales, together with its
financial condition, justify the maximum penalty per
violation. This is especially true given that NWS
reaped over $67 million in sales from the unlawful
conduct. (Edson Decl. Exh. 6.) The proposed penalty
here is but a small fraction of that amount. Moreover,
the People have requested a penalty based on invoiced
transactions between NWS and Big Sandy, as opposed
to the number of cigarettes sold, despite the fact that
other courts have upheld penalties against NWS based
on the number of cigarettes sold for essentially the
same conduct. (State v. Native Wholesale Supply (Okla.
2014) 338 P.3d 613, 624.) The People’s evidence
demonstrates 476 violations based on violations of the
Directory Statute (476 invoiced transactions of
shipping GRE-cigarettes into California that were on
the AG’s directory), 229 violations predicated on the
Fire Safety Act (229 invoiced transactions of cigarettes
that were not properly certified as fire safe), and 96
violations predicated on violations of 15 U.S.C. § 376
(failures to report to the Board of Equalization) for a
total of 801 violations of the UCL. At $2,500 per
violation, the People are entitled to penalties in the
amount of $2,002,500 under the UCL.

App. 95
In addition, the People are separately entitled to
penalties under the Fire Safety Act which provides that
“any manufacturer or any other person or entity that
knowingly sells or offers to sell cigarettes other than
through retail sale in violation of this part is subject to
a civil penalty not to exceed $10,000 per sale.” (Health
& Safety Code, § 14955, subd. (a).) NWS has admitted
that the sales were not retail sales. (Edson Decl. Exh.
1, p. 2.) NWS committed at least 229 invoiced
transactions since July 9, 2008 when it was served with
the complaint and thus knew that the GRE-Cigarettes
had not been certified as fire-safe. The Fire Safety Act
does not set forth the factors to consider in assessing
the amount of the penalty, but the same factors
discussed above support a maximum penalty for each
violation. As a result at $10,000 per violation, the
People are entitled to penalties in the amount of
$2,290,000 under the Fire Safety Act.
In opposition, NWS argues that there is a triable
issue of fact as to how many cigarettes were sold to
“non-Indians” after they were sold to Big Sandy.
However, the penalty sought here is based on a pertransaction basis, not the number of cigarettes sold.
This distinguishes the matter from the nonbinding trial
court decision referred to by NWS in its opposition.
(Mackey Decl. Exh. B.) There the penalty was sought
based on the number of cigarettes sold. By contrast
here, the penalty is sought based on the number of
transactions to Big Sandy and there is no dispute that
NWS sold all cigarettes to Big Sandy. NWS in essence
attempts to repeat its failed arguments that under a
pre-emption analysis, it cannot be liable for sales made
to Indian customers. That argument has been rejected.

App. 96
In sum, the Court finds that there are no disputed
factual issues on the issue of remedies, which would
require a separate evidentiary hearing and the People
are therefore entitled to penalties in the amount of
$4,292,500. In addition, the People are entitled to
injunctive relief. The People seek injunctive relief in
connection with their cause of action under the UCL
which expressly allows for injunctive relief even in
situations where a person “has engaged” in the
challenged practice. (Bus. & Prof. Code § 17203.) This
section was expanded to “encompass past activity.... ”
(Stop Youth Addiction, Inc. v. Lucky Stores, Inc. (1998)
17 Cal.4th 553, 570.) The remedial power under the
UCL “necessarily includes authority to make orders to
prevent such activities from occurring in the future.”
(Hewlett v. Squaw Valley Sid Corp. (1997) 54
Cal.App.4th 499, 540 [citations omitted].) Injunctive
relief is also available under the Fire Safety Act.
(Health &. Safety Code,§ 14955, subd. (f).) “Injunctive
relief will be denied [only] if ... there is no reasonable
probability that the past acts complained of will recur.”
(Colgan v. Leatherman Tool Group, Inc. (2006) 135
Cal.App.4th 663, 702 [citations omitted].) “The Court
has the power to refuse to enjoin future conduct where
it is satisfied that there is no reasonable possibility
past unlawful acts will be repeated.” (People v.
National Association of Realtors (1981) 120 Cal.App.3d
459, 476.) The People seek injunctive relief enjoining
NWS from selling cigarettes that are not listed on the
Attorney General’s Directory or not certified in
compliance with the Fire Safety Act to anyone in
California, or to anyone anywhere when NWS knows or
should know that those cigarettes will be resold in or

App. 97
into California, and if NWS makes any such sales, to
file all documents required by 15 U.S.C. § 376.
While NWS claims to have stopped selling
contraband cigarettes in California in May 2012, as
already discussed, it did not cease selling the cigarettes
even after the instant complaint was filed and even
after it claims to have stopped, it engaged in conduct in
2014 promoting sales of the cigarettes in California
when it spent $3 million on a customer appreciation
event.
NWS’s arguments that it is bankrupt and that it
does not intend to resume sales were fully addressed in
the Court’s ruling denying NWS’s motion for summary
judgment and need not be addressed again. In short,
the People’s evidence shows the injunctive relief is
proper as there is a probability that NWS will resume
sales unless otherwise enjoined.
As a result, the People’s motion for summary
judgment is GRANTED in full. The People are entitled
to $4,292,500 and permanent injunctive relief as
requested.
The People’s evidentiary objections are sustained. In
any event, even if the objections were overruled, the
result would not change.
IT IS SO ORDERED.
DATED: DEC 28 2016
/s/David I. Brown
JUDGE OF THE SUPERIOR COURT
[SEAL]

DAVID I. BROWN

App. 98

APPENDIX F
KAMALA D. HARRIS
Attorney General of California
KAREN LEAF
Senior Assistant Attorney General
MICHAEL M. EDSON, SBN 177858
MICHELLE HICKERSON, SBN 199748
Deputy Attorneys General
600 West Broadway, Suite 1800
San Diego, CA 92101
Telephone: (619) 738-9307
Fax: (619) 645-2012
Email: Michelle.Hickerson@doj.ca.gov
Attorneys for Plaintiff
People of the State of California
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF SACRAMENTO
Case No. 34-2008-00014593 CU-CL-GDS
[Filed December 28, 2016]
___________________________________
PEOPLE OF THE STATE OF
)
CALIFORNIA ex rel. Kamala D.
)
Harris, Attorney General,
)
)
Plaintiff,
)
)
v.
)

App. 99
NATIVE WHOLESALE SUPPLY
COMPANY, a corporation, and
DOES 1 through 20,

)
)
)
)
Defendant. )
___________________________________ )
ORDER DENYING NATIVE WHOLESALE
SUPPLY COMPANY’S MOTION FOR
SUMMARY JUDGMENT, OR ALTERNATIVELY,
MOTION FOR SUMMARY ADJUDICATION
Dept:
Judge:
Trial Date:
Action Filed:

53
Hon. David I. Brown
Feb. 21, 2017
June 30, 2008

Upon consideration of the papers and oral
arguments of counsel, and the evidence submitted,
Defendant Native Wholesale Supply Company’s
(“NWS”) Motion for Summary Judgment, or in the
Alternative, Summary Adjudication is ruled upon as
follows.
In this action, the People of the State of California
allege numerous causes of action against NWS based
on its conduct in importing illegal cigarettes from
Canada and selling them in California. The People
assert causes of action for violation of the Directory
Statute (Rev. & Tax. Code, § 30165.1), the Fire Safety
Act (Health & Safety Code, § 14955 et seq.), and
violations of the Unfair Competition Law”(“UCL”) (Bus.
& Prof. Code, § 17200 et seq.).
The People’s request for judicial notice is granted.

App. 100
NWS moves for summary judgment on the basis
that the complaint is pre-empted and also seeks
summary adjudication as to the People’s request for
injunctive relief.
The People are correct that NWS’s Notice of Motion
and Separate Statement of Undisputed Material Facts
fail to comply with California Rules of Court, rule
3.1350(b). While the notice of motion indicates that
NWS is moving for summary judgment and summary
adjudication, the notice fails to identify any specific
cause of action, affirmative defense, claim for damages,
or issues of duty as to which summary adjudication is
sought and the separate statement is silent as well.
NWS attempted to correct the errors by filing an
amended statement in reply. The Court will not deny
the motion on these procedural deficiencies.
NWS’s separate statement includes the following.
Arthur Montour, an enrolled member of the Seneca
Nation of Indians (“Seneca Nation”) is NWS’s sole
owner. NWS is a corporation that was chartered under
the laws of the Sac and Fox Nation of Oklahoma, which
is a federally recognized Indian tribe. NWS’s
headquarters are located within and on the sovereign
lands of the Seneca Nation in New York. NWS filed for
bankruptcy in the Western District of New York on
November 21, 2011. In 2012, NWS ceased selling
cigarettes to entities in California. Prior to that time
NWS sold cigarettes to tribal entities in California.
NWS does not intend to resume these sales. All sales
underlying the claims in this action occurred within the
Big Sandy Rancheria located on the sovereign land of
the Joaquin Band of Western Mono Indians. The terms

App. 101
of NWS’s sales were FOB Seneca Nation land with title
and risk of loss passing to Big Sandy Rancheria before
the products entered into California. NWS did not sell
cigarettes directly to consumers. The People have
admitted in discovery that NWS made its sales to
persons in Indian Country and that delivery occurred
in Indian Country.
I. ENTIRE COMPLAINT
NWS first moves for summary judgment on the
basis that the People’s claims are preempted by federal
law under the Bracker balancing test enunciated in
White Mtn. Apache Tribe v. Bracker (1980) 448 U.S.
136, 143 [“Bracker”]. NWS argues that it is entitled to
summary judgment based on Bracker because “State
law is ‘inapplicable’ to the transactions underlying the
People’s claims because those transactions occurred on
a reservation solely among various Indian-owned
entities.” (NWS Mem. 7:5-7.) The Court finds that NWS
failed to meet its burden to show that it is entitled to
judgment on this basis.
“When on-reservation conduct involving Indians is
at issue, state law is generally inapplicable, for the
State’s regulatory interest is likely to be minimal and
the federal interest in encouraging tribal selfgovernment is at its strongest.” (Bracker, supra, 448
U.S. at p. 144.) “More difficult questions arise where,
as here, a State asserts authority over the conduct of
non-Indians engaging in activity on the reservation.”
(Ibid.) Bracker does not, as NWS appears to contend,
lay down a per se rule that States may not regulate
conduct on reservations where only Indians or tribal
members are involved, much less an Indian-owned

App. 102
entity such as NWS. Rather, when such conduct is at
issue, the ability of a State to regulate that conduct
depends on a balancing of the state, federal, and tribal
interests. (Id., at pp. 144-145.) Bracker’s balancing test
calls for careful attention to the factual setting,
requiring “a particularized inquiry into the nature of
the state, federal, and tribal interests at stake, and
inquiry designed to determine whether, in the specific
context, the exercise of state authority would violate
federal law.” (Id., at p. 145.) NWS fails to offer any
evidence or even any argument regarding the balancing
of the state, federal and tribal interests under the
circumstances of the case. As a result, NWS has failed
to demonstrate that it is entitled to judgment as a
matter of law on the People’s complaint on the basis
that it is preempted by Bracker. The burden never
shifted to the People to demonstrate the existence of a
triable issue of material fact and the motion is denied
on this basis alone.
In any event, any argument or evidence regarding
a Bracker balancing test would be insufficient to
demonstrate that NWS was entitled to judgment. The
California Court of Appeal has held that with respect
to the same laws at issue here and the on-reservation
sale of the same cigarettes at issue, that “[n]o federal or
tribal interest outweighs the state’s interest in
collecting cigarette tax revenue or enforcing the
California tobacco directory and cigarette fire safety
laws.” (People ex rel. Harris v. Black Hawk Tobacco,
Inc. (2011) 197 Cal.App.4th 1561, 1571.) The Oklahoma
Supreme Court has reached a similar conclusion in
connection with the prosecution of NWS in Oklahoma
for the same cigarette sale scheme at issue here.

App. 103
Persuasively, the Oklahoma Supreme Court indicated
that Bracker did not apply at all but even if it did, “the
State’s interest in enforcing the [Directory Statute]
would outweigh any interest the tribe or federal
government might have in prohibiting its enforcement
against Native Wholesale Supply.” (Stale ex rel.
Edmondson v. Native Wholesale Supply (Okla. 2010)
237 P.3d 199, 216.) These decisions are consistent with
the decisions of the United States Supreme Court
which have held that a state could regulate the sale of
cigarettes by a tribal member on his own reservation to
non-member Indians of the tribe. (Washington v.
Confederated Tribes of the Colville Reservation (1980)
447 U.S. 134, 160-161.) Here NWS claims it is located
on the Seneca reservation but sells cigarettes to Big
Sandy, a tribe, but not a member of the Seneca Nation.
That is no different than Colville. As a result, the
motion is denied.
Further, as shown by the People, even if Bracker
laid down a per se rule barring States from regulating
on-reservation conduct of an “Indian-owned entity” or
even an Indian or tribal member, which as seen above
Bracker did not, the motion still fails. Indeed, “[a]bsent
express federal law to the contrary, Indians going
beyond reservation boundaries have generally been
held subject to non-discriminatory state law otherwise
applicable to all citizens of the State.” (Mescalero
Apache Tribe v. Jones (1973) 411 U.S. 145, 148-149.)
The only evidence that NWS appears to offer to support
its preemption argument is evidence that the subject
transactions occurred with the Big Sandy Rancheria.
But even if the Court considered this evidence, case law
has held “inter-tribal” trade is not exempt from state

App. 104
regulation. (See. e.g., Muscogee (Creek) Nation v. Henry
(E.D.Okla. 2010) 867 F.Supp.2d 1197. 1206-1211.)
Thus, even if Bracker created a per-se rule, the
evidence is insufficient to demonstrate that NWS was
engaged in on-reservation activity subject to Bracker,
and the burden never shifted to the People to
demonstrate the existence of a triable issue of material
fact.
Further, as shown by the People, the evidence
offered in support of the motion is objectionable, and
the Court has sustained the People’s objections. In any
event, even if this evidence were sufficient, the People
have demonstrated the existence of triable issues of
material fact. The People’s evidence shows that NWS
utilized a middleman to deliver cigarettes to Big Sandy
and also that some of the cigarettes were delivered to
entities other than Big Sandy. (People’s Separate
Statement of Undisputed Material Facts in Opposition
to [NWS’s Motion]. UF 5). The evidence shows that
NWS sold contraband cigarettes purchased from Grand
River Enterprises Six Nations Ltd. (“GRE”) a Canadian
corporation, imported them into the United States
storing them at various foreign trade zones and
customs bonded warehouses in New York and/or
Nevada. (People’s UF 10, 12, 14.) NWS used at least
one customs broker to facilitate the importation process
and then paid and arranged for the shipment of the
cigarettes either to Big Sandy or directly to Big Sandy’s
downstream customers. (People’s UF 15, 16, 25.) The
evidence creates a triable issue of material fact as to
whether the sales at issue extended beyond reservation
boundaries and thus would not be preempted even if
Bracker created the per se rule NWS believes it did. In

App. 105
fact, the Oklahoma Supreme Court has found that an
essentially identical cigarette scheme involving NWS
comprised sales taking place in multiple locations both
on and off different tribal lands was not on-reservation
conduct for purposes of Indian Commerce Clause
jurisprudence but rather off-reservation conduct by
members of different tribes and thus subject to state
regulation without even considering Bracker.
(Edmondson, supra, 237 P.3d at 215-216.) Edmondson
has been cited favorably by the Third District Court of
Appeal in this very case in finding that California has
personal jurisdiction over NWS. (People ex rel. Harris
v. Native Wholesale Supply Co. (2011) 196 Cal.App.4th
357, 364-365.) Indeed, the Idaho Supreme Court has
reached an identical conclusion: “Looking at NWS’s
activity as a whole, it cannot be characterized as an on
reservation activity. NWS is operated on the Seneca
reservation in New York, but is organized under the
laws of a separate tribe. It purchases cigarettes that
are manufactured in Canada. It stores those cigarettes
in a foreign trade zone in Nevada. It then ships those
cigarettes from Nevada into Idaho. NWS’s activities in
this case are not limited to a single reservation, or even
several reservations. Thus, we hold that NWS’s
importation of non-compliant cigarettes into Idaho is
an off reservation activity and is therefore not subject
to a Bracker analysis.” (State ex rel. Wasden v. Native
Wholesale Supply Co. (Idaho 2013) 312 P.3d 1257,
1267.) Thus, even if Bracker created a per se rule, there
would be triable issues of material fact as to whether
NWS was engaged in on reservation activity.

App. 106
As a result, NWS’s motion for summary judgment
on the basis that the People’s claims are pre-empted
under Bracker is denied.
II. THE PEOPLE’S REQUEST FOR INJUNCTIVE RELIEF
NWS next seeks summary adjudication on the
People’s request for injunctive relief because it is
bankrupt and ceased selling cigarettes in California in
2012. The motion is denied.
First, the notice of motion does not even identify
that NWS was seeking adjudication of this issue. In
any event, “[i]njunctive relief is a remedy, not a cause
of action.” (Allen v. City of Sacramento (2015) 234
Cal.App.4th 41, 65.) While the People seek injunctive
relief in this action, they do so in connection with their
numerous causes of action. A pleaded cause of action
states a legal ground for recovery supported by specific
allegations of conduct by the defendant on which the
plaintiff relies to establish a right to relief. The People
have not asserted a cause of action for “injunctive
relief.” Thus, even assuming that NWS was correct
that the People cannot obtain injunctive relief, this
would not completely dispose of any cause of action,
affirmative defense, claim for damages, or an issue of
legal duty as required by Code of Civil Procedure
section 437c, subdivision (f)(1). Nor has NWS obtained
a stipulation from the People allowing a motion for
summary adjudication of certain legal issues or
damages not covered by subdivision (f)(1). (Code Civ.
Proc., § 437c, subd. (t).) The motion is denied on this
basis alone.

App. 107
In any event, even if such motion were proper,
which it is not, NWS failed to meet its burden. Indeed,
the People seek injunctive relief in connection with
their cause of action under the UCL, which expressly
allows for injunctive relief even in situations where a
person “has engaged” in the challenged practice. (Bus.
& Prof. Code § 17203.) This section was expanded to
“encompass past activity....” (Stop Youth Addiction, Inc.
v. Lucky Stores, Inc. (1998) 17. Cal.4th 553, 570.) The
remedial power under the UCL “necessarily includes
authority to make orders to prevent such activities
from occurring in the future.” (Hewlett v. Squaw Valley
Ski Corp. (1997) 54 Cal.App.4th 499, 540 [citations
omitted].) “Injunctive relief will be denied [only] if ...
there is no reasonable probability that the past acts
complained of will recur.” (Colgan v. Leatherman Tool
Group, Inc. (2006) 135 Cal.App.4th 663, 702 [citations
omitted].) “The court has the power to refuse to enjoin
future conduct where it is satisfied that there is no
reasonable possibility past unlawful acts will be
repeated.” (People v. National Association of Realtors
(1981) 120 Cal.App.3d 459, 476.)
Here, NWS’s evidence is that it filed for Chapter 11
bankruptcy in 2011. But it does not offer any evidence
that the bankruptcy left it unable to restart cigarette
sales in California. The case cited by NWS did not hold
that the mere fact a company filed for bankruptcy
demonstrated that an injunction should not issue.
(Paul v. Milk Depots, Inc. (1964) 62 Cal.2d 129.)
Rather, there, an injunction against future sales of
milk was denied as “unnecessary” and “ineffectual” not
simply because the company was bankrupt but because
the company lost its license to distribute milk and the

App. 108
pricing regulation that the company was charged with
violating was repealed and replaced with a new
regulation. (Id., at pp. 133-134.) In addition, the
evidence from NWS’s “manager” Erlind Hill that NWS
does not intend to restart sales does not show that
there is no reasonable probability that NWS will
restart sales. This statement was made “to the best of
[his] knowledge and belief.” (Hill Decl. 1:27-28.) Such
a declaration is insufficient to establish the personal
knowledge required by section 437c. (Ahrens v.
Superior Court (1988) 197 Cal.App.3d 1134, 1151, fn.
13.) Nor does Mr. Hill indicate that he is an officer,
director, or specify what he manages on NWS’s behalf
to indicate how he would have personal knowledge
about NWS’s intent. Mr. Hill’s attempt to submit a
more detailed declaration in reply for the first time is
rejected. Even if this statement from Mr. Hill were
admissible, statements of intent are insufficient to
foreclose future conduct different from that intent.
(People v. JTH Tax, Inc. (2013) 212 Cal.App.4th 1219,
1256 [“without an injunction, Liberty could easily and
indeed unilaterally change its policies”].) The cases
cited by NWS are not to the contrary and do not set
forth any per se rule that a defendant’s statement of
present intent not to resume illegal conduct precludes
issuance of an injunction. (National Association of
Realtors, supra, 120 Cal.App.3d at pp. 476-477
[discussing not just an intent to cease the conduct but
also that the conduct was not performed by the
defendants sought to be enjoined, assurances to the
Court that they would comply with the Court’s holding,
would not interfere with the remaining defendant’s
compliance with the injunction and the fact that the
Court reserved jurisdiction for an indefinite time to

App. 109
impose an injunction in the future].) Courts impose
injunctions even where the defendant indicates that
the conduct will not be repeated. “Defendant [ ]
contends that the case is moot as to him because there
is no reasonable probability that his past advertising
practices will recur.... The point is without merit since
a permanent injunction may be issued where the guilty
party retains the means of continuing his
transgressions, even though he testified that he no
longer intends to do so.” (Department of Agriculture v.
Tide Oil Co. (1969) 269 Cal.App.2d 145, 150.) In sum,
NWS’s evidence fails to demonstrate that an injunction
should not be issued here and failed to shift to the
People the burden of demonstrating a triable issue of
material fact.
In any event, the People have presented evidence
creating a triable issue of material fact as to whether
NWS will resume sales in California. This includes
evidence that NWS will not formally agree to stop such
sales unless and until a Court decrees such sales to be
illegal, that months after emerging from bankruptcy in
2014, it paid $3 million towards a “customer
appreciation gala” in Las Vegas which was attended by
numerous persons affiliated with entities that sell the
subject cigarettes, including Big Sandy’s chairperson.
(People’s UF 28, 31.) NWS indicated that these were
“the people we need to be buying our product or
[people] we desire to become customers.” (People’s UF
30.)
As a result, the motion directed to the People’s
request for injunctive relief is denied. The motion is
denied in its entirety.

App. 110
The People’s evidentiary objections are sustained.
NWS’s evidentiary objections are overruled.
CONCLUSION
For the foregoing reasons, NWS’s Motion for
Summary Judgment or Alternatively for Summary
Adjudication is DENIED in its entirety.
IT IS SO ORDERED.
DATED: DEC 28 2016
/s/DAVID I. BROWN
JUDGE OF THE SUPERIOR COURT
[SEAL]

DAVID I. BROWN

App. 111

APPENDIX G
Xavier Becerra
Attorney General of California
KAREN LEAF
Senior Assistant Attorney General
MICHAEL M. EDSON, SBN 177858
MICHELLE HICKERSON, SBN 199748
Deputy Attorneys General
600 West Broadway, Suite 1800
San Diego, CA 92101
Telephone: (619) 738-9307
Fax: (619) 645-2012
Email: Michelle.Hickerson@doj.ca. gov
Attorneys for Plaintiff
People of the State of California
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF SACRAMENTO
Case No. 34-2008-00014593 CU-CL-GDS
[Filed January 24, 2017]
___________________________________
PEOPLE OF THE STATE OF
)
CALIFORNIA ex rel. Kamala D.
)
Harris, Attorney General,
)
)
Plaintiff,
)
)
v.
)

App. 112
NATIVE WHOLESALE SUPPLY
COMPANY, a corporation, and
DOES 1 through 20,

)
)
)
)
Defendant. )
___________________________________ )
AMENDED NOTICE OF ENTRY
OF JUDGMENT
TO DEFENDANTS AND THEIR ATTORNEYS OF
RECORD:
PLEASE TAKE NOTICE THAT on December 28,
2016, the Court entered final judgment for plaintiff and
against defendant. A true and correct copy of the final
judgment is appended to this notice.
Dated: January 24, 2017
Respectfully Submitted,
Xavier Becerra
Attorney General of California
KAREN LEAF
Senior Assistant Attorney General
MICHAEL M. EDSON
MICHELLE HICKERSON
Deputy Attorneys General
/s/Michelle Hickerson
MICHELLE HICKERSON
Deputy Attorney General
Attorneys for Plaintiff
SA2008303415

App. 113
JUDGMENT
KAMALA D. HARRIS
Attorney General of California
KAREN LEAF
Senior Assistant Attorney General
MICHAEL M. EDSON, SBN 177858
MICHELLE HICKERSON, SBN 199748
Deputy Attorneys General
600 West Broadway, Suite 1800
San Diego, CA 92101
Telephone: (619) 738-9307
Fax: (619) 645-2012
Email: Michelle.Hickerson@doj.ca.gov
Attorneys for Plaintiff
People of the State of California
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF SACRAMENTO
Case No. 34-2008-00014593 CU-CL-GDS
[Filed December 28, 2016]
___________________________________
PEOPLE OF THE STATE OF
)
CALIFORNIA ex rel. Kamala D.
)
Harris, Attorney General,
)
)
Plaintiff,
)
)
v.
)
)
NATIVE WHOLESALE SUPPLY
)
COMPANY, a corporation, and
)

App. 114
DOES 1 through 20,

)
)
Defendant. )
___________________________________ )
FINAL JUDGMENT
Dept:
Judge:
Trial Date:
Action Filed:

53
Hon. David I. Brown
Feb. 21, 2017
June 30, 2008

Having granted plaintiff’s motion for summary
judgment in full and in accordance with the Court’s
formal order granting that motion, the Court now
enters judgment for civil penalties and a permanent
injunction against defendant Native Wholesale Supply
Company as follows:
1. Defendant shall pay to plaintiff, the People of
the State of California, (“People”) $2,002,500 in civil
penalties, pursuant to section 17206 of the Business
and Professions Code for violations as follows: a
$1,190,000 civil penalty for defendant’s 476 violations
of Revenue and Taxation Code section 30165.1,
subdivision (e); a $572,500 civil penalty for defendant’s
229 violations Health and Safety Code section 14950 et
seq., and; a $240,000 civil penalty for defendant’s 96
violations of 15 U.S.C. § 376.
2. Defendant shall pay to the People $2,290,000
civil penalty, pursuant to Health and Safety Code
section 14955, subdivision (a), for defendant’s 229
violations of Health and Safety Code section 14950 et
seq.

App. 115
3. Defendant Native Wholesale Supply Company,
its directors, officers, employees, agents, successors,
and any persons acting in concert or participation with
them are permanently enjoined from engaging in any
of the following unlawful business practices:
a. Violating Revenue and Taxation Code section
30165.1 in any way and specifically from:
i)

Selling, offering, or possessing for sale
in this state (as used in this judgment,
“this state” has same meaning as
defined by Revenue and Taxation
Code section 30013: “within the
exterior limits of the State of
California and includes all territory
within these limits owned by or ceded
to the United States of America”),
shipping or otherwise distributing into
or within this state cigarettes of a
tobacco product manufacturer or
brand family not included in the
California Tobacco Directory, which
conduct is prohibited by subdivision
(e)(2) of section 30165.1;

ii)

Selling or distributing cigarettes that
defendant knows or should know are
intended to be distributed in violation
of subdivision (e)(2), which conduct is
prohibited by subdivision (e)(3) of
section 30165.1; and

iii)

Acquiring,
holding,
owning,
possessing, transporting, importing or

App. 116
causing to be imported cigarettes that
defendant knows or should know are
intended to be distributed in violation
of subdivision (e)(2), which acts are
prohibited by subdivision (e)(3) of
section 30165.1.
b. Violating Health and Safety Code section
14950 et seq., and specifically from selling,
offering or possessing for sale in this state
cigarettes not in compliance with the
requirements of the Act, which conduct is
prohibited by section 14951, subdivision (a)
of the Health and Safety Code.
c. Selling, transferring, or shipping for profit
cigarettes into this state without filing the
reports required by 15 U.S.C. § 376.
4. The People are entitled to costs in an amount to
be determined by a bill of costs.
DATED: DEC 28 2016
/s/DAVID I. BROWN
JUDGE OF THE SUPERIOR COURT
[SEAL]

DAVID I. BROWN

App. 117

APPENDIX H
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
Scott S. Harris
Clerk of the Court
(202) 479-3011
December 5, 2019
Mr. Randolph Henry Barnhouse
Barnhouse Keegan Solimon & West LLP
7424 4th Street NW
Los Ranchos de Albuquerque, NM 87107
Re:

Native Wholesale Supply Company
v. California, ex rel. Xavier Becerra, et al.
Application No. 19A629

Dear Mr. Barnhouse:
The application for an extension of time within
which to file a petition for a writ of certiorari in the
above-entitled case has been presented to Justice
Kagan, who on December 5, 2019, extended the time to
and including February 3, 2020.
This letter has been sent to those designated on the
attached notification list.

App. 118
Sincerely,
Scott S. Harris, Clerk
by Redmond K. Barnes
Redmond K. Barnes
Case Analyst

NOTIFICATION LIST
Mr. Randolph Henry Barnhouse
Barnhouse Keegan Solimon & West LLP
7424 4th Street NW
Los Ranchos de Albuquerque, NM 87107
Clerk
Court of Appeal of California, Third Appellate District
914 Capitol Mall, 4th Floor
Sacramento, CA 95814

App. 119

APPENDIX I
PAUL J. CAMBRIA, JR. (State Bar No. 177957)
PATRICK J. MACKEY, ESQ. (Pro Hac Vice)
pcambria@lglaw.com
pmackey@lglaw.com
LIPSITZ GREEN SCIME CAMBRIA LLP
1631 West Beverly Blvd., Second Floor
Los Angeles, CA 90026
Telephone: (323) 883-1807
Attorneys for Defendant
NATIVE WHOLESALE SUPPLY
COMPANY, a corporation
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF SACRAMENTO
Case No. 34-2008-00014593-CU-CL-GDS
[Filed November 17, 2016]
___________________________________
PEOPLE OF THE STATE OF
)
CALIFORNIA ex rel. Kamala D.
)
Harris, Attorney General,
)
)
Plaintiff,
)
)
vs.
)
)
NATIVE WHOLESALE SUPPLY
)

App. 120
COMPANY, a corporation,

)
)
Defendant. )
___________________________________ )
DECLARATION OF ERLIND HILL IN
SUPPORT OF NATIVE WHOLESALE SUPPLY
COMPANY’S OPPOSITION TO THE PEOPLE’S
MOTION FOR SUMMARY JUDGMENT, OR
ALTERNATIVELY, MOTION FOR SUMMARY
ADJUDICATION
Date:
Time:
Dept:
Judge:
Trial Date:
Action Filed:

November 17, 2016
2:00 P.M
53
Hon. David I. Brown
February 21, 2017
June 30, 2008

I, Erlind Hill, being a manager of Native Wholesale
Supply Company (“NWS”), declare that the following is
true and correct to the best of my knowledge and belief:
1. Arthur Montour, an enrolled member of the
Seneca Nation of Indians (“Seneca Nation”), is
NWS’ sole owner.
2. NWS is a corporation that is chartered under
the laws of the Sac and Fox Nation of Oklahoma,
which is a federally-recognized Indian tribe.
NWS’ headquarters is located within and on the
sovereign lands of the Seneca Nation of Indians,
which is located within the geographic
boundaries of New York.

App. 121
3. NWS filed for bankruptcy in the Western
District of New York on November 21, 2011, in
a case assigned docket entry number 11-BK14009(CLB).
4. In 2012, NWS ceased selling cigarettes to
entities located within the geographic
boundaries of California. Prior to such cessation,
NWS sold cigarettes to tribal entities located
within the geographic boundaries of California.
NWS does not intend to restart such sales.
5. My understanding is that all of the transactions
underlying the People’s claims occurred with the
Big Sandy Rancheria, which is located on the
sovereign land of the Joaquin (or Big Sandy)
Band of Western Mono Indians. The terms of
NWS’ sales to Big Sandy Rancheria were FOB
Seneca Nation land, with title and risk of loss
transferring to Big Sandy Rancheria before the
products entered into the geographic boundaries
of the State of California.
6. NWS did not sell cigarettes directly to
consumers. I am informed and believe that all
cigarettes sold by Big Sandy Rancheria were redistributed solely in Indian Country in
California.
7. In connection with other threatened or actual
lawsuits involving Indian-owned companies, I
am aware that the States have taken positions
and produced documents in discovery relating to
the application of the MSA laws to Indian
Country and Native Americans and their

App. 122
businesses including, but not limited to, the
Model NPM Statute, Frequently Asked
Questions, a true and correct copy of which is
attached hereto as Exhibit A, and an April 30,
2008, letter from the California State Board of
Equalization to Richard Johnson, a true and
correct copy of which is attached hereto as
Exhibit B.
8. I declare under penalty of perjury under the
laws of the State of California that the foregoing
is true and correct.
DATED: October 19, 2016

/s/Erlind Hill
Erlind Hill

App. 123

APPENDIX J
EDMUND G. BROWN JR.
Attorney General of the State of California
J. MATTHEW RODRIQUEZ
Chief Assistant Attorney General
DENNIS ECKHART, State Bar No. 070730
Senior Assistant Attorney General
MICHAEL M. EDSON, State Bar No. 177858
Deputy Attorney General
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
Telephone: 916-323-3770
Fax: 916-323-0813
E-mail: Dennis.Eckhart@doj.ca.gov
Attorneys for Plaintiff
People of the State of California
SUPERIOR COURT OF CALIFORNIA
IN AND FOR THE COUNTY OF SACRAMENTO
Case No. 34-2008-00014593-CU-CL-GDS
[Filed June 30, 2008]
___________________________________
People of the State of California
)
ex rel. Edmund G. Brown Jr.,
)
Attorney General,
)
)
Plaintiff,
)

App. 124
v.

)
)
Native Wholesale Supply Company, )
a corporation, and Does 1 through
)
20 inclusive,
)
Defendant.
)
__________________________________ )
Department Assignments
Case Management 39
Law and Motion 54
Minors Compromise 22
COMPLAINT FOR INJUNCTION, CIVIL
PENALTIES, CONTEMPT AND
OTHER RELIEF
Plaintiff People of the State of California, through
Edmund G. Brown Jr., Attorney General of the State of
California, allege as follows:
NATURE OF ACTION
Since at least January 2004, defendant Native
Wholesale Supply Company (Native Wholesale), a
cigarette importer headquartered in New York state,
has been selling tens of millions of Seneca and Opal
brand cigarettes each year to businesses in California.
None of these cigarettes are lawful for sale in
California because neither their Canadian
manufacturer, Grand River Enterprises/6 Nations,
Ltd., (Grand River or Grand River Enterprises) nor the
Seneca and Opal brands have ever been listed on
California’s Tobacco Directory. Since June 29, 2004, no
one may lawfully sell cigarettes in California unless
both the brand and the manufacturer are listed on the

App. 125
Directory, which the Attorney General maintains,
based upon whether the manufacturer is in compliance
with state financial responsibility laws. (Rev. & Tex.
Code, § 30165.1.)
In addition, neither Seneca nor Opal brand
cigarettes comply with the ignition-propensity
standards and related requirements for cigarettes sold
in California, established by the California Cigarette
Fire Safety and Firefighter Protection Act (Health &
Saf. Code, § 14950 et seq.). Since January 31, 2007, no
one may lawfully sell cigarettes that do not comply
with this Act.
Since at least January 2004, Native Wholesale has
also been violating federal law by shipping cigarettes in
interstate commerce to persons or entities in California
that are not licensed as cigarette distributors by the
California Board of Equalization but failing to report
such shipments to the Board, as required by the
Jenkins Act (15 U.S.C. § 375 et seq.).
Native Wholesale’s violations of state and federal
law constitute unfair competition pursuant to
California’s Unfair Competition Law (Bus. & Prof.
Code, § 17200 et seq.), which prohibits unlawful
business acts or practices.
Native Wholesale’s actions also violate injunctions
issued by the Superior Court in and for the County of
Sacramento against Grand River Enterprises, that
enjoin Grand River from selling any cigarettes in
California “either directly or through a distributor,
retailer or other intermediary” because with knowledge
of these injunctions Native Wholesale has acted as an

App. 126
agent or intermediary for Grand River and aided and
abetted Grand River in the sale of cigarettes in
California.
PARTIES
1. The People of the State of California act through
their duly elected Attorney General, Edward G. Brown
Jr., the chief law officer of the state. (Cal. Const., art.
5, § 13.)
2. The Attorney General is charged with
administering the tobacco directory law (Rev. & Tax.
Code, § 30165.1) and may bring actions to enforce this
law.
3. Health and Safety Code section 14955(f)
authorizes the Attorney General to bring actions on
behalf of the people of the state to restrain violations of
the California Cigarette Fire Safety and Firefighter
Protection Act (Health & Saf. Code § § 14955, subd. (f).)
4. Business and Professions Code section 17204
authorizes the Attorney General to bring actions to
enforce the California Unfair Competition Law (Bus. &
Prof. Code, § 17200 et seq.).
5. Defendant Native Wholesale Supply Company is
a closely held corporation chartered by the Sac and Fox
Tribe of Oklahoma. On information and belief, Native
Wholesale has its principal place of business in the
state of New York.
6. The true names and capacities of defendants
sued in this complaint under the fictitious names of
Does 1 through 20, inclusive, are unknown to plaintiff

App. 127
who therefore sues such defendants by such fictitious
names. Plaintiff will amend this complaint to show the
true names of each when the same has been
ascertained. Defendants sued herein as Does 1 through
20 are, and at all relevant times were, engaged with
defendant Native Wholesale in the activities and
conduct complained of herein.
7. Whenever reference is made in this Complaint to
any act of Native Wholesale, such allegations shall
mean that Native Wholesale through its agents,
employees, or representatives, did or authorized such
acts while actively engaged in the management,
direction or control of the affairs of Native Wholesale’s
cigarette importing business and while acting within
the scope and course of their duties.
8. At all relevant times, each of the defendants has
acted as an agent, representative, employee, servant,
partner, franchisee, affiliate, successor or joint
venturer of each of the other defendants and has acted
within the course and scope of such agency,
representation, employment, service, partnership,
franchise or joint venture.
JURISDICTION AND VENUE
9. The violations of law alleged in this complaint
occurred in Sacramento County and in other counties
in California or occurred outside of California but were
intended by defendants to have effects in California.
This court has personal jurisdiction over defendant
Native Wholesale because defendant sold, offered for
sale and profited from the sale of cigarettes to persons
within the state of California, thus transacting

App. 128
business within this state and purposely and
voluntarily availing itself of the privilege of conducting
activities within the state of California.
10.
Venue is proper in this county pursuant to
Code of Civil Procedure section 395(a) because
defendant Native Wholesale is not a ·resident of
California.
FACTUAL ALLEGATIONS
11.
Since at least January 1, 2004, Native
Wholesale has been importing into the United States
cigarettes manufactured by Grand River Enterprises in
Canada, including Seneca and Opal brand cigarettes.
12.
Since at least January 1, 2004, Native
Wholesale has been shipping or causing to be shipped
cigarettes manufactured by Grand River Enterprises
from the Nevada International Trade Corporation, a
Foreign Trade Zone located in Las Vegas, Nevada, to
persons or businesses located in California, including
but not limited to Big Sandy Rancheria, sometimes also
known as BSR Distributing, in Auberry, California,
and Huber Enterprise in Loleta, California.
13.
During the past four calendar years, Native
Wholesale shipped or caused to be shipped into
California at least the following amounts of Seneca and
Opal brand cigarettes manufacturer by Grand River
Enterprises:
• 2004 9,896,000 cigarettes

(30 shipments)

• 2005 37,798,000 cigarettes (46 shipments)
• 2006 72,690,000 cigarettes (58 shipments)

App. 129
• 2007 79,110,000 cigarettes (63 shipments; 58
since January 31, 2007)
14.
From January 1, 2008, through May 14, 2008,
Native Wholesale shipped or caused to be shipped at
least 31,782,000 Seneca and Opal brand cigarettes into
California (17 shipments), of which 19,512,000
cigarettes (9 shipments) occurred after March 12, 2008.
15.
Since the California Tobacco Directory was
first established and posted on the Attorney General’s
public web site, on June 29, 2004, Seneca brand
cigarettes have never been listed on the Directory.
16.
Since the California Tobacco Directory was
first established and posted on the Attorney General’s
public web site, on June 29, 2004, Opal brand
cigarettes have never been listed on the Directory.
17.
Since the California Tobacco Directory was
first established and posted on the Attorney General’s
public web site, on June 29, 2004, Grand River
Enterprises has never been listed on the California
Tobacco Directory.
18.
At all times relevant to this complaint, Big
Sandy Rancheria has not been licensed by the
California Board of Equalization as a cigarette
distributor.
19.
At one or more locations on tribal land in
Auberry, California, Big Sandy Rancheria sells and
offers for retail sale to non-Indians cigarettes
manufactured by Grand River Enterprises that Big
Sandy Rancheria has purchased from Native
Wholesale.

App. 130
20.
Plaintiff is informed and believes that Big
Sandy Rancheria distributes to other persons and
businesses for retail sale to non-Indians in California
cigarettes manufactured by Grand River Enterprises
that Big Sandy Rancheria has purchased from Native
Wholesale.
21.
Native Wholesale knows or should know that
Big Sandy Rancheria is selling and offering for retail
sale to non-Indians in California and distributing to
other persons and businesses for retail sale to nonIndians cigarettes manufactured by Grand River
Enterprises that Big Sandy Rancheria has purchased
from Native Wholesale.
22.
At all times relevant to this complaint, Huber
Enterprise, a business located on Wyot Indian Table
Bluff land, has not been a California licensed cigarette
distributor.
23.
At a retail location in Loleta, California,
Huber Enterprise sells and offers for retail sale to nonIndians cigarettes manufactured by Grand River
Enterprises that Huber Enterprise has purchased from
Native Wholesale.
24.
Plaintiff is informed and believes that Huber
Enterprise distributes to other persons and businesses
for sale at retail to non-Indians in California cigarettes
manufactured by Grand River Enterprises that Huber
Enterprise has purchased from Native Wholesale.
25.
Native Wholesale knows or should know that
Huber Enterprise is selling and offering for retail sale
in California to non-Indians and distributing to other
persons and business for retail sale to non-Indians

App. 131
cigarettes manufactured by Grand River Enterprises
that Huber Enterprise has purchased from Native
Wholesale.
26.
Native Wholesale has not reported to the
California Board of Equalization any of its cigarette
shipments to Big Sandy Rancheria or Huber
Enterprise.
27.
Grand River Enterprises has never certified
to the State Fire Marshal that any of the cigarettes it
manufactures, including its Seneca and Opal brand
cigarettes, meet the ignition-propensity standards
established by the California Legislature in the
California Cigarette Fire Safety and Firefighter
Protection Act (Health & Saf. Code, §§ 14950 - 14960).
28.
On December 14, 2004, the Superior Court in
and for the County of Sacramento in case number
02AS07518, entitled People of the State of California,
ex rel. Bill Lockyer, Attorney General, v. Grand River
Enterprises/6 Nations Ltd., etc., entered a final
judgment enjoining Grand River Enterprises for a
period of two years from selling any cigarettes in
California “either directly or through a distributor,
retailer or other intermediary.”
29.
On December 19, 2006, the Superior Court in
and for the County of Sacramento in case number
05AS04121, entitled People of the State of California,
ex rel. Bill Lockyer, Attorney General, v. Grand River
Enterprises/6 Nations Ltd., etc., entered a final
judgment enjoining Grand River Enterprises for a
period of two years from selling any cigarettes in

App. 132
California “either directly or through a distributor,
retailer or other intermediary.”
30.
On October 29, 2007, the Superior Court in
and for the County of Sacramento in case number
05AS01688, entitled People of the State of California,
ex rel. Bill Lockyer, Attorney General, v. Grand River
Enterprises/6 Nations Ltd., etc., entered a final
judgment enjoining Grand River Enterprises for a
period of two years from selling any cigarettes in
California “either directly or through a distributor,
retailer or other intermediary.”
31.
On March 7, 2008, the California Attorney
General’s Office mailed a letter, certified mail, return
receipt requested, to the president of Native Wholesale
Supply Company, Arthur Montour. A true and correct
copy of this letter and of the return receipt, signed on
March 12, 2008, by Tricia Thomas are attached to this
Complaint as Exhibit A and incorporated in this
complaint as though fully set forth. Among other
things, the letter notified Native Wholesale of the
injunction described in paragraph 30, above, and asked
Native Wholesale to confirm that it has ceased
shipping Grand River cigarettes into the state of
California.
32.
Despite having received the letter described
in paragraph 31, above, Native Wholesale has
continued to ship for sale in California Seneca and
Opal brand cigarettes from the Nevada International
Trade Corporation to Big Sandy Rancheria and Huber
Enterprise, in knowing violation of the October 29,
2007, injunction, described in paragraph 30, above.

App. 133
31.
Plaintiff is informed and believes and on that
basis alleges that since at least January 1, 2004,
Native Wholesale and Grand River have operated
under an agreement or business arrangement by which
Native Wholesale imports into the United States and
distributes to persons or businesses operating on
Indian land in California and other states cigarettes
manufactured by Grand River.
FIRST CAUSE OF ACTION
(Violation of California Tobacco Directory Law,
against All Defendants)
34.
Plaintiff realleges and incorporates by
reference paragraphs 1 through 33 of this complaint.
35.
California’s tobacco directory law, Revenue
and Taxation Code section 30165.1, subdivision (e)(2),
prohibits any person from selling cigarettes or offering
cigarettes for sale in California unless both the
manufacturer and the cigarette brand meet the
conditions for listing on the directory and, in fact, are
listed on the directory at the time they are sold or
offered for sale. (Rev. & Tax. Code, § 30165.1.)
36.
California’s tobacco directory law, Revenue
and Taxation Code section 30165.1, subdivision
(e)(3)(A), prohibits any person from selling or
distributing cigarettes that the person knows or should
know are intended to be distributed in violation of
subdivision (e)(2).
37.
California’s tobacco directory law, Revenue
and Taxation Code section 30165.1, subdivision
(e)(3)(B), prohibits any person from acquiring, holding,

App. 134
owning, possessing, transporting, importing or causing
to be imported cigarettes that the person knows or
should know are intended to be distributed in violation
of subdivision (e)(2).
38.
Since June 29, 2004, and continuing to the
present, defendant Native Wholesale has sold, held,
owned, possessed, imported, or caused to be imported
cigarettes manufactured by Grand River Enterprises
that Native Wholesale knew or should have known do
not meet the conditions for listing on the directory and,
in fact, have never been listed on the directory.
39.
Defendant Native Wholesale’s sales of and
other activities relating to cigarettes of tobacco product
manufacturers or brand families that are not included
in California’s tobacco directory violate Revenue and
Taxation Code section 30165.1, subdivisions (e)(2) and
(3).
SECOND CAUSE OF ACTION
(Violation of the California Cigarette Fire
Safety and Firefighter Protection Act,
against All Defendants)
40.
The People reallege and incorporate by
reference paragraphs 1 through 33 of this complaint.
41.
Section 14951, subdivision (a) of the
California Cigarette Fire Safety and Firefighter
Protection Act prohibits any person from se1ling,
offering, or possessing for sale in California cigarettes
not in compliance with the testing, certification and
marking requirements of subdivision (a) of section

App. 135
14952, subdivision (b) of section 14952, section 14953
and section 14954 of the Act.
42.
Any person who sells cigarettes in California,
other than at retail, in violation of the Act is subject to
a civil penalty of up to $10,000 for each sale. (Section
14955, subd. (a).)
43.
Plaintiff is informed and believes and on that
basis alleges that none of the cigarettes defendant
Native Wholesale has sold to Big Sandy Rancheria and
Huber Enterprise since February 1, 2007, have been
tested, certified or marked as required by subdivision
(a) of section 14952, subdivision (b) of section 14952,
section 14953 and section 14954 of the Act.
THIRD CAUSE OF ACTION
(Contempt for Violation of Injunctions Against
Grand River Enterprises, against
All Defendants)
44.
The People reallege and incorporate by
reference paragraphs 1 through 33 of this complaint.
45.
Since at least March 12, 2008, the day Native
Wholesale received notice from the Attorney General’s
Office of the court injunction, entered on October 29,
2007, that enjoins Grand River Enterprises from
selling cigarettes in California either directly or
through an intermediary, defendant Native Wholesale
has knowingly acted as an intermediary for and in
concert or participation with Grand River by selling
cigarettes manufactured by Grand River in California;
has knowingly violated the injunction; and is subject to
remedies for contempt.

App. 136
46.
Since December 14, 2004, Native Wholesale
has acted as an agent or intermediary for Grand River
Enterprises or has otherwise aided and abetted Grand
River Enterprises in violating the court injunctions
entered against Grand River on October 29, 2007,
December 19, 2006, and December 14, 2004,
respectively, by shipping Seneca and Opal brand
cigarettes to persons and businesses in California for
sale in California.
47.
The People are informed and believe and on
that basis allege that Native Wholesale had actual
knowledge of each of these injunctions from at or about
the time the People served Grand River Enterprises
with notice of their entry and that despite that
knowledge Native Wholesale acting for and in concert
or participation with Grand River has shipped Seneca
and Opal brand cigarettes to persons and businesses in
California for sale in California; and as such Native
Wholesale is in contempt of each of these injunctions.
FOURTH CAUSE OF ACTION
(Violations of California Unfair Competition
Law against All Defendants)
48.
The People reallege and incorporate by
reference paragraphs 1 through 45 of this complaint.
49.
Pursuant to Business and Professions Code
section 17203, the court may enjoin any person who
engages, has engaged or proposes to engage in unfair
competition.
50.
Pursuant to Business and Professions Code
section 17206, any person who engages, has engaged,

App. 137
or proposes to engage in unfair competition shall be
liable for a civil penalty up to $2,500 for each violation.
51.
A violation of subdivision (e) of section
30165.1 of the Revenue and Taxation Code constitutes
unfair competition under section 17200 of the Business
and Professions Code. (Section 30165.1, subd. (1).)
52.
Defendant Native Wholesale has engaged in
acts of unfair competition prohibited by California’s
unfair competition law (Business and Professions Code
section 17200 et seq.) in that Native Wholesale has:
A. Sold cigarettes to persons and businesses in
California for resale in California in violation of
California’s tobacco directory law (Rev. & Tax.
Code, § 30165.1) because neither the cigarette
brands nor their manufacturer have ever been
listed on the California tobacco directory, as
alleged in the first cause of action, above;
B. Sold cigarettes to persons and businesses in
California for resale in California in violation of
the California Cigarette Fire Safety and
Firefighter Protection Act (Health & Saf. Code,
§§ 14950-14960) because the cigarettes have not
been tested, certified or marked as required by
subdivision (a) of section 14952, subdivision (b)
of section 14952, section 14953 and section
14954 of the Act, as alleged in the second cause
of action, above;
C. As an agent or intermediary for, or aiding and
abetting, Grand River Enterprises to sell
cigarettes in California in violation of court
injunctions entered against Grand River

App. 138
Enterprises selling cigarettes directly or through
an intermediary; and,
D. Shipped cigarettes to persons or entities in
California that are not licensed cigarette
distributors and failing to report such shipments
to the California Board of Equalization in
violation of the federal Jenkins Act, 15 U.S.C.
§ 375 et seq.
PRAYER FOR RELIEF
The People pray for the following relief:
1. That, pursuant to Business and Professions Code
section 17203, the court enjoin defendants, their
successors, employees, agents, representatives, and all
other persons acting in concert with them, from
engaging in unfair competition as defined in Business
and Professions Code section 17200 and specifically
from the following acts and practices:
A. Selling to persons and businesses in California
for resale in California any cigarettes whose
brand family and manufacturer are not listed on
the California tobacco directory, as required by
California’s tobacco directory law (Rev. & Tax.
Code, § 30165.1);
B. Selling to persons and businesses in California
for resale in California any cigarettes that do not
comply with the California Cigarette Fire Safety
and Firefighter Protection Act (Health & Saf.
Code, §§ 14950-14960), including but not limited
to the testing, certification, and marking
requirements of subdivision (a) of section 14952,

App. 139
subdivision (b) of section 14952, section 14953
and section 14954 of the Act;
C. Acting as an agent or intermediary for, or
otherwise aiding and abetting, Grand River
Enterprises to sell cigarettes in California in
violation of court injunctions prohibiting Grand
River from selling cigarettes in California; and,
D. Shipping cigarettes to persons or entities in
California that are not licensed cigarette
distributors and then failing to report such
shipments to the California Board of
Equalization in violation of the federal Jenkins
Act, 15 U.S.C. § 375 et seq.
2. That, pursuant to Health and Safety Code
section 14955(f), the court preliminarily and
permanently enjoin defendants, their successors,
employees, agents, representatives, and all other
persons acting in concert with them, from selling or
offering for sale cigarettes that do not comply with the
California Cigarette Fire Safety and Firefighter
Protection Act (Health & Saf. Code, §§ 14950-14960),
including but not limited to the testing, certification,
and marking requirements of subdivision (a) of section
14952, subdivision (b) of section 14952, section 14953
and section 14954 of the Act;
3. That, pursuant to Business and Professions Code
section 17206, the court assess against defendants a
civil penalty of $2,500 for each act of unfair
competition, as alleged in the complaint, in a total
amount to be determined by proof but not less than

App. 140
$507,500, based on 211 separate shipments of
cigarettes from January 1, 2004 through May 14, 2008.
4. That, pursuant to Health and Safety Code
section 14955(a), the court assess against defendants a
civil penalty of $10,000 for each sale of cigarettes that
did comply with the California Cigarette Fire Safety
and Firefighter Protection Act, in a total amount to be
determined by proof, but not less than $750,000, based
on at least 75 shipments from after January 31, 2007,
to May 14, 2008.
5. That the court find defendants in contempt of
the court’s prior injunctions and impose an appropriate
monetary fine on Native Wholesale.
6. That, pursuant to Revenue and Taxation Code
section 30165.1(p), Health and Safety Code section
14955(f), and Code of Civil Procedure section 1218, the
court award the People costs of investigation, expert
witness fees, costs of the action, and reasonable
attorney’s fees.
7. That the court retain jurisdiction of this action.
8. That the court order defendant Native Wholesale
to disclose any and all information needed to enforce a
judgment and/or injunction.
9. That the court award such other and further
relief as is appropriate and just.
Dated: June 30, 2008

App. 141
Respectfully submitted,
EDMUND G. BROWN JR.
Attorney General of the State of California
J. MATTHEW RODRIQUEZ
Chief Assistant Attorney General
DENNIS ECKHART
Senior Assistant Attorney General
/s/Dennis Eckhart
DENNIS ECKHART
Senior Assistant Attorney General
Attorneys for Plaintiff
People of the State of California

30491910.wpd
SA2008301415

